<html>
<title> - THE CURRENT STATUS OF U.S. GROUND FORCES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




                         [H.A.S.C. No. 110-144]
 
                THE CURRENT STATUS OF U.S. GROUND FORCES

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             APRIL 9, 2008

                                     
[GRAPHIC] [TIFF OMITTED] 

                                     



                  U.S. GOVERNMENT PRINTING OFFICE
44-098                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office  Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001



                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
SILVESTRE REYES, Texas               ROSCOE G. BARTLETT, Maryland
VIC SNYDER, Arkansas                 HOWARD P. ``BUCK'' McKEON, 
ADAM SMITH, Washington                   California
LORETTA SANCHEZ, California          MAC THORNBERRY, Texas
MIKE McINTYRE, North Carolina        WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
ROBERT A. BRADY, Pennsylvania        W. TODD AKIN, Missouri
ROBERT ANDREWS, New Jersey           J. RANDY FORBES, Virginia
SUSAN A. DAVIS, California           JEFF MILLER, Florida
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                FRANK A. LoBIONDO, New Jersey
JIM MARSHALL, Georgia                TOM COLE, Oklahoma
MADELEINE Z. BORDALLO, Guam          ROB BISHOP, Utah
MARK UDALL, Colorado                 MICHAEL TURNER, Ohio
DAN BOREN, Oklahoma                  JOHN KLINE, Minnesota
BRAD ELLSWORTH, Indiana              PHIL GINGREY, Georgia
NANCY BOYDA, Kansas                  MIKE ROGERS, Alabama
PATRICK J. MURPHY, Pennsylvania      TRENT FRANKS, Arizona
HANK JOHNSON, Georgia                BILL SHUSTER, Pennsylvania
CAROL SHEA-PORTER, New Hampshire     THELMA DRAKE, Virginia
JOE COURTNEY, Connecticut            CATHY McMORRIS RODGERS, Washington
DAVID LOEBSACK, Iowa                 K. MICHAEL CONAWAY, Texas
KIRSTEN E. GILLIBRAND, New York      GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania             DOUG LAMBORN, Colorado
GABRIELLE GIFFORDS, Arizona          ROB WITTMAN, Virginia
NIKI TSONGAS, Massachusetts
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
                    Erin C. Conaton, Staff Director
                Michael Casey, Professional Staff Member
               Stephanie Sanok, Professional Staff Member
                    Caterina Dutto, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Wednesday, April 9, 2008, The Current Status of U.S. Ground 
  Forces.........................................................     1

Appendix:

Wednesday, April 9, 2008.........................................    51
                              ----------                              

                        WEDNESDAY, APRIL 9, 2008
                THE CURRENT STATUS OF U.S. GROUND FORCES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Ranking 
  Member, Committee on Armed Services............................     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Cody, Gen. Richard A., USA, Vice Chief of Staff, U.S. Army.......     4
Magnus, Gen. Robert, USMC, Assistant Commandant, U.S. Marine 
  Corps..........................................................     6

                                APPENDIX

Prepared Statements:

    Cody, Gen. Richard A.........................................    55
    Magnus, Gen. Robert..........................................    66

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Sestak...................................................   109
    Ms. Tsongas..................................................   110

                THE CURRENT STATUS OF U.S. GROUND FORCES

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Wednesday, April 9, 2008.
    The committee met, pursuant to call, at 1:25 p.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Ladies and gentlemen, as I announced at the 
earlier hearing today, for this hearing we will depart from our 
usual order of questioning to ensure that everyone has the 
opportunity to participate. And we will start by questioning 
with members who were here for this morning's hearing, but did 
not get to ask a question, that were present at the gavel for 
this hearing. We will then proceed in the usual order. If you 
have any questions, please address them to the staff.
    House Armed Services Committee will now meet in open 
session to discuss the state of ground forces' readiness.
    We are honored to have with us today two exceptional 
military leaders: General Richard Cody, Vice Chief of Staff for 
the United States Army, and General Robert Magnus, Assistant 
Commandant of the United States Marine Corps.
    And, gentlemen, we welcome you and thank you for your 
service.
    We convene this hearing shortly after an important hearing 
this morning with General David Petraeus and Ambassador Ryan 
Crocker. And from my perspective we cannot consider the way 
ahead in Iraq without careful examination of the state of 
readiness of our military and its ability to deter or fight an 
unexpected conflict.
    We have had 12 military contingencies in the last 31 years, 
some of them major, most of them unexpected. We must have a 
trained and properly equipped force ready to handle whatever 
comes, but my strong concern is that our readiness shortfalls 
and the limitations on our ability to deploy trained and ready 
ground forces have reached a point where these services would 
have a very steep uphill climb with increased casualties to 
respond effectively to an emergency contingency.
    And I have to agree with you, General Cody, in what you 
said in testimony last week. I have never seen our lack of 
strategic depth be where it is today, and this should concern 
all Americans.
    We have the finest military in the world, no doubt about 
it, and they have become masters in the counterinsurgency 
fight. But it takes time to retrain our forces so they can deal 
with our types of conflict, and our forces just don't have the 
time.
    I understand the Army intends to reduce deployments from 15 
to 12 months. This is an improvement, and, of course, I applaud 
it, but it only resets us to where we were last winter. At this 
pace, we will still wear out our troops, and it does not leave 
enough time for the training needed to ensure they can respond 
to any conflict we might face.
    I might, at this point, say I am very sensitive about this 
because I had a roommate in law school who was caught in the 
Pusan Perimeter in 1950, and hearing him tell about that, we do 
not want to be in that state of readiness as we were, sadly, at 
that moment.
    The Army and Marine Corps have been forced to move 
equipment from nondeployed units and preposition stocks to 
support combat requirements. Our equipment is focused on the 
units next to deploy to Iraq and the ones in theater, leaving 
gaps for training and for those who should be our strategic 
reserve.
    This also extends to the National Guard, which has an 
average of 61 percent of the equipment needed to be ready for 
disasters or attacks on the homeland.
    General Magnus, your testimony says that the net effect of 
these trends is that our ability is very limited to rapidly 
provide ready forces to conduct other small- or large-scale 
operations.
    And despite all that this Congress and the services have 
done to provide funding to reset our force, our readiness, as 
General Cody aptly put it, it is being consumed as fast as we 
can build it.
    So where do we go from here?
    Gentlemen, there is no ulterior motive here. We need to 
hear where things stand with our ground forces and what must be 
done to reduce the strategic risk that we are facing. This 
committee is committed to doing all we can to help you restore 
the readiness of our ground forces. We owe it to all those 
serving with incredible distinction, as well as to their 
families and to the American people, whom they defend. We look 
forward, gentlemen, to your testimony.
    My friend, my Ranking Member Mr. Hunter.

    STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
    CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Hunter. Thank you, Mr. Chairman, and thanks for holding 
this hearing. I think very timely hearing.
    And, gentlemen--General Magnus, General Cody--thanks for 
being with us today and for your great service.
    And, General Cody, I understand this may be one of the last 
hearings you are going to be attending, since your retirement 
is imminent. And let me just say that I think you have 
performed a great service for this country. We have crossed 
swords a lot over the last several years and had a lot of 
common ground together, but I think that anybody who evaluates 
your great military career has got to come to the conclusion 
that you put a tremendous intellect and a great heart into 
everything that you do.
    And, personally, I think it is a mistake for us not to get 
a few more miles out of you before we take the saddle off. You 
are a great asset to this country, and, very personally, I 
would like to see you continue to perform in a leadership role 
for this country. It takes a lot of time to develop that 
corporate insight and capability and experience that is 
important in times of war. This is a time of war. So my opinion 
is that we need to ride you for a couple more miles here, 
General. Thanks for your great service to this country.
    Our committee members--and especially those of the 
Readiness Subcommittee--are actively engaged in the issues that 
impact the readiness of our forces in light of the operations 
right now in Iraq and Afghanistan. So we face this big 
challenge to rebuild and reset and modernize and to transform 
and at the same time make our forces bigger all the time we are 
engaged in the war.
    So we started this endeavor with about a $56 billion 
shortfall in equipment, and, in addition, the Army's 
transformation initiative--the necessary transition from a 
strategic reserve to an operational reserve--and the Army and 
Marine Corps grow-the-force efforts have all increased a lot of 
the requirements.
    In effect, these changes have shifted the readiness 
goalpost further down the field. And let me go over a few of 
those.
    In 2001 we had a requirement for 4,722 medium tactical 
vehicles, and we only had 290 of them on hand. Today that 
requirement has grown to 22,000, and we have got over 9,200 
fielded to our Army Guard units. In other words, we have gone 
from 290 to more than 10 times that much.
    In 2001 they had a requirement for 69,000 tactical radios, 
and we had 60 percent of that requirement on hand. Today we 
have got over 82,300. That means we have got about 40,000 more 
than we had before, and yet the readiness sheets show that we 
now have increased the requirement to 81,000. So we are right 
at what we have to produce to have the right number, but we are 
substantially over what we had in the past.
    In 2001 they had a requirement for over 200,000 night-
vision goggles, and we had 53,000. So we had about 25 percent 
of the requirement. Today we have got over twice the number 
produced--that is, we have 112,000 night-vision goggles--but we 
moved the requirement up, and we now have filled 77 percent of 
the requirement.
    So I think it is important to be clear that a lot of this 
progress is a result of years of supplemental funding that is 
in part due to the fact that the base budget was not increased 
to fill in these shortages. And folks at home need to know 
that. They need to know that what we refer to as the ``global 
war on terror supplemental'' is providing funding for things 
like trucks, radios, body armor and night-vision goggles that 
we did not have but that we had a requirement for prior to 
September 11, 2001. And I think it is important for folks to 
understand, in many areas of equipment, we have vastly more 
equipment today than we had in 2001, even though our papers and 
our documents still show a shortage.
    The readiness of our forces is critical, and there is 
certainly a lot of work to be done. However, I believe we are 
remiss in talking about military readiness without addressing 
the role that we--the Congress--have in assuring the money is 
provided to achieve that readiness.
    In January 2007 the Administration submitted the 2008 
global war on terror (GWOT) supplemental request alongside the 
fiscal year 2008 base budget. I would like to read you a brief 
statement from that request: ``The cumulative effect of 5 years 
of operations is creating strain on both personnel and 
equipment. This request provides funding for special pays and 
benefits for personnel to sustain the all-volunteer force, and 
it provides funding to maintain, repair or replace equipment 
lost, worn out or stressed by use.''
    During his testimony before this committee on February 6, 
Secretary of Defense Gates stressed that funding in the 2008 
supplemental request was directly related to the readiness of 
the force. He stated: We have about $46 billion in the 2008 
supplemental for reconstituting the force. We received about 
$13 billion-plus of that in the bridge. So that will help us 
replace equipment and repair equipment that is associated here.
    Secretary Gates continued: So I think there are a number of 
things that are in the budget that put us on the path to 
improve readiness, but it is clear that our readiness is 
focused--at least in the Army--on fighting the wars that we are 
in in both Afghanistan and Iraq. The forces that are being sent 
there are fully trained and are ready when they go.
    That said, I would like to ask all of my colleagues 
concerned with military readiness a very simple question: Why 
is the fiscal year 2008 supplemental request still sitting on 
the shelves collecting dust when it can be used to improve the 
readiness of our troops?
    Over the last two days, I have watched my colleagues across 
the aisle chastise the government of Iraq for not passing 
critical legislation when we can't even pass a supplemental 
spending bill during a time of war. We have readiness issues, 
and we are all concerned about the impact on readiness on our 
national security.
    However, our readiness issues are not to be blamed solely 
on the war in Iraq. It is time we take responsibility for our 
readiness shortfalls and fund the requirements rather than use 
readiness problems that existed well before we set foot in Iraq 
as a reason to justify abandoning that mission.
    So thank you, Mr. Chairman, for holding this very important 
hearing today, and I look forward to the testimony.
    The Chairman. Thank the gentleman.
    General Cody.

 STATEMENT OF GEN. RICHARD A. CODY, USA, VICE CHIEF OF STAFF, 
                           U.S. ARMY

    General Cody. Good afternoon, Chairman Skelton, Congressman 
Hunter, distinguished members of the committee.
    I am honored to represent the----
    The Chairman. Would you get a little closer to the 
microphone, please.
    General Cody. Roger.
    I am honored to represent 1.1 million soldiers, nearly 
600,000 of whom are serving on active duty today and over 
250,000 of whom are deployed worldwide, 176,000 of those in the 
combat zone, as I testify on issues that are critical to the 
readiness of the United States Army.
    I have submitted a detailed written statement for the 
record, but I would like to briefly emphasize a few points here 
today.
    One of the qualities that we cherish as a values-based and 
capabilities-based Army is the ability to engage in frank, 
candid and professional assessments of our abilities and our 
levels of preparedness. With this quality comes the duty to 
provide not only an honest assessment of our strengths and 
weaknesses but also recommendations to remedy those areas that 
we believe need improvement. We must be self-critical if we are 
to ensure that our soldiers are always more than ready to meet 
the challenges of an adaptive, patient, prolific and very 
dangerous enemy.
    It has been almost nine years since I sat before this 
committee as the returning deputy commanding general Task Force 
Hawk to testify on the state of Army readiness. At that time, I 
told the committee that we were starting to feel the results of 
declining resources and that, while the armed forces budgets 
and authorizations continued to shrink, our mission set in the 
Army has steadily expanded. When asked directly, I stated that 
I believed we were a 10-division Army attempting to execute a 
14-division mission. I stand by that statement.
    Just two years later, 9/11 would bring terrorism to our 
shores, and our necessary military response would accelerate us 
down a path toward decreased strategic readiness that we now 
see today.
    We can no longer allow hope to trump what history and 
experience have taught us. When we size and resource our force 
for the stable world we all hope for and not for the full-
spectrum dangers before us, it is the American soldier who 
ultimately pays the price.
    History has once again given us an opportunity to get this 
right. If we take the long-term view, if we fully appreciate 
and act on the reality that our investments in the Army of 
tomorrow and the readiness of our current force are dependent 
upon each other and are inextricably linked, then we can change 
the course.
    I believe that the Army leadership with the help of the 
President, the Department of Defense and Congress has taken the 
long-term view and maximized the momentum of a force in motion 
that is at war to transform this Army. We have taken this 
window of opportunity, the increased resources and national 
attention to invest in our soldiers and their families, to grow 
the Army, reset and modernize our equipment, rebalance and 
modulize our formations, change our doctrine and improve our 
care of the force across the total force.
    Because of this, we are faced with a dichotomy of 
readiness. We are the most battle-hardened, best-equipped, 
best-led, and best-trained force for the counterinsurgency 
fight that we now face. But we are also unprepared for the 
full-spectrum fight and lack the strategic depth that has been 
our traditional fallback for the uncertainties of this world. 
We are a stress force but not a hollow force. We are a better 
force, but our focus has been narrowed.
    Overall, I believe that the strength of our soldiers and 
their families are truly what allow me to say unequivocally 
this Army is not broken. We have asked our soldiers to sprint, 
and they did. We have asked them to run a marathon, and they 
have. That marathon has become an enduring relay, and our 
soldiers continue to run and at the double time.
    Does this exhaust the body and mind of those in the race 
and those who are ever present on the sidelines cheering them 
on? Yes. Has it broken the will of the soldier? No. Our 
soldiers do not quit. They stand on a tradition of victory for 
this country and don't just want to run the race. They want to 
win it.
    We cannot take their resiliency for granted. It will 
require more than the courage and valor of our soldiers to 
ensure our Army can continue to fight and win the Nation's war 
in an era of persistent conflict. We must invest in the future 
to ensure our soldiers always have technical and tactical 
overmatch against any enemy. We need an open and honest 
discussion on the size of our force versus the demands of a 
contemporary operating environment that we now face.
    We must continue the transformation of the Reserve 
component to an operational force, and, above all, we must 
retain the quality all-volunteer Army that we now have. For in 
the end, the recruitment and retention of a highly motivated 
and capable all-volunteer force is the center of gravity for 
this Nation and all that we stand for.
    To do this, we need full and timely funding that takes the 
long-term view of readiness. We must place a higher value in 
this country on what it means to serve and have a greater 
appreciation for those who have heard that call to duty and, 
knowing the dangers, are brave enough to answer it. And we will 
need the continued support of the American people, whose safety 
and security are preserved by those courageous few.
    The Congress has provided tremendous support to our Army 
these past six years, and we are grateful for it. With the 
continued support from the President, the Secretary of Defense 
and the Congress, the Army will restore itself to balance and 
build the readiness necessary in an era of persistent conflict 
and continue to remain the strength of this Nation.
    I thank you, and I look forward to your questions.
    [The prepared statement of General Cody can be found in the 
Appendix on page 55.]
    The Chairman. General, thank you.
    General Magnus.

 STATEMENT OF GEN. ROBERT MAGNUS, USMC, ASSISTANT COMMANDANT, 
                       U.S. MARINE CORPS

    General Magnus. Thank you, Chairman Skelton, Congressman 
Hunter, distinguished members of the committee.
    Thank you for this opportunity to report to you today on 
the readiness of your Marine Corps. On behalf of our over 
189,000 active component and nearly 40,000 members of the 
selected Marine Corps Reserve, our sailors and their families, 
I would like to extend my appreciation for the sustained 
support that the Congress provides your Marine Corps.
    Your Marines are fully engaged in long war today, with over 
37,000 Marines deployed from Iraq to Afghanistan, the Horn to 
West Africa, from Korea to the Philippines and here in our 
homeland hemisphere. Your Marines and sailors are performing 
magnificently under challenging and often dangerous conditions. 
I want to assure you that our warriors in combat are our 
number-one priority. They are well trained, well led and 
equipped for their assigned missions.
    Although we are currently meeting our operational 
requirements with ready mission-effective forces, the net 
effects of sustained combat and a high operational tempo 
(OPTEMPO) are taking a toll on our Marines, their families, our 
equipment and full-spectrum training readiness.
    Contributing to the stress on our force is the short dwell 
time between deployments and our intense focus on 
counterinsurgency operations. The short dwell time at home does 
not allow our units the time to train to the full spectrum of 
missions needed to be ready for other contingencies. This most 
directly affects your Marines' proficiency and core 
competencies, such as, combined arms and amphibious operations.
    To ensure our forward-deployed forces maintain high 
readiness, we have been required to source personnel and 
equipment from nondeployed units and prepositioning programs. 
This cross-leveling of personnel and equipment has reduced 
nondeployed units' ability to train for other contingency 
operations.
    Additionally, we are taking actions to correct the effects 
of stress on the force.
    First, to sustain the demands of the long war, the Marine 
Corps is growing its active component and strength to 202,000 
Marines. This increase will provide the combatant commanders 
with ready Marines for the current counterinsurgency mission.
    It will also improve our active component deployment-to-
dwell ratio to one-to-two, reducing stress on Marines and their 
families and ensuring that Marines have the necessary time for 
full-spectrum training. The increased active in-strength will 
create three balanced Marine expeditionary forces and reduce 
the need to mobilize our Reserve forces, improving their dwell 
ratio to one-to-five.
    Second, we are resetting our forces to ensure our equipment 
remains ready for tomorrow's missions. For over five years, 
intense combat operations have resulted in the heavy use and 
loss of our ground and aviation equipment. Operational demands 
have also increased our equipment maintenance and replacement 
costs far beyond what was planned in our baseline budgets.
    With the Congress's help over the past three years, we have 
begun to make progress in meeting reset requirements. To date 
the Congress has provided $10.9 billion in supplemental funding 
toward our estimated total reset requirement of $15.6 billion. 
We look forward to continuing to reset our forces with the 
remaining fiscal year 2008 GWOT request.
    Third, to ensure that your Marine Corps will remain ready 
for future challenges, we will continue to modernize our 
warfighting equipment, including new ships and aircraft, and 
our infrastructure.
    I am proud to report that your support has helped ensure 
the continuing success of Marines and sailors. The morale and 
resiliency of your Marines has never been higher. They 
volunteered to serve their Nation at war, have been sent to do 
that mission and know that they are succeeding despite very 
demanding conditions and a ruthless enemy.
    We will continue to keep our primary focus on supporting 
Marines and sailors in combat and taking care of their families 
at home. We will continue to reset and to modernize your Marine 
Corps, ensuring that it remains ready today, ready tomorrow and 
ready for the uncertain challenges of the future.
    Congress's support has enabled us to succeed. That 
continuing support will ensure that we will always, as Congress 
has directed, be the most ready when the Nation is least ready.
    I look forward to your questions.
    [The prepared statement of General Magnus can be found in 
the Appendix on page 66.]
    The Chairman. General, thank you very much.
    We will begin where we left off, and I have on the list now 
Mr. Cooper, Mr. Miller, Mr. Marshall, Mr. Kline--in that 
order--to begin on the five-minute rule.
    Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman.
    Generals, our Nation is thankful for your service.
    First question, since the ground forces have borne the 
largest share of the fight, do you think they should get a 
larger share of the base budget of the Pentagon than the Navy 
or the Air Force? That share, as you know, has held constant 
now for some 30 or 40 years.
    General Cody. I think, Congressman, having been in the 
building now for six years--I think we ought to throw out the 
pie charts or percentages for services. This Nation deserves 
the best Air Force, the best Navy, the best Marines, the best 
Army and the best Coast Guards we can have. This is not about 
percentages of what service gets what share. It is about the 
wants and needs of this country to be defended by our services.
    Mr. Cooper. Thank you, General, but the Army has gotten 28 
percent plus or minus 2 percent over 40 years, even though you 
have borne--what?--90-plus percent of the casualties. It is an 
amazing thing to me that we don't adjust these budgets to meet 
the needs of our troops.
    General Cody. I have testified before that this is not 
about, again, taking money from our other teammates because we 
will always go to war as a joint force. The fact that our 
soldiers have not been strafed by enemy aircraft for over 50 
years is because we have the best Air Force. The fact that we 
are able to unload our equipment in ports safely is because we 
have the best Navy. And the Marines and Army fight as a joint 
force.
    The real issue is what percent of the gross domestic 
product (GDP) is the Department of Defense (DOD) going to get 
for a top line? If you take a look at the amounts of dollars it 
has taken us to put in supplementals--as Congressman Hunter so 
stated--to put in supplementals to buy back--what the former 
Chief of Staff of the Army Pete Schumacher so well said--
``holes in the yard'' for the contemporary operating 
environment we are in, it is about increasing the top line for 
DOD so we can do all these things.
    We can't look at the current fight and modernization of all 
the other services and play them off each other. We have to 
take a holistic view of the defense of this Nation.
    Mr. Cooper. Let me try again.
    After the Pentagon completes its roles and missions review, 
do you think that the Army and the Marines will or should look 
any different than they do today?
    General Cody. As you know, we came out of the Quadrennial 
Defense Review (QDR) 2005 and we started seeing a top-line 
increase for the Army. We will have another QDR in fiscal year 
2010. And, again, it gets back to we need to fund what the 
Nation needs and wants, and the wants and needs need to be 
equal.
    Mr. Cooper. If you look at our troops today in Iraq and 
Afghanistan, they have performed brilliantly, but many of these 
troops were not really trained for the job they are executing 
on the ground. We have Navy and Air Force personnel on the 
ground doing what would normally be expected to be Army-Marine 
work. We have other anomalies: artillerymen training folks who 
will never see any artillery.
    Would our troops be under less stress if they had been 
better trained for the mission against the insurgents or 
special groups--whatever we are calling them today?
    General Cody. First off, let me make sure that I am clear 
on this.
    We had to in 2004 and 2005 retrain artillery battalions to 
conduct security convoy operations. We had to take them out of 
their traditional roles as artillerymen. We have had to do that 
with other parts of our forces because we entered this war with 
an Army that was end strength of 482,000 on the active side, 
350,000 on the National Guard and about 198,000 in the United 
States Army Reserve (USAR). That was a result of 10 years of 
downsizing after the wall came down in 1989 and after the Gulf 
War.
    And so we did not have enough depth across the Army--total 
Army--to meet the demands of a 360-degree battle fight that we 
were in. But we did not send those artillerymen in untrained. 
We retrained them for that mission.
    Mr. Cooper. But we have had four or five years now to train 
folks properly for the task at hand, and we are still using Air 
Force and Navy personnel on the ground.
    General Cody. We are. Those are for the military-training 
teams, as well as for other security force. Again, it is 
because of the stress that we have had on the total force.
    But I want to make sure I am clear. We don't send anybody 
down range unless we train them for that mission. It may not be 
the mission of the unit they came from.
    But to your point, that is what we mean by when we say we 
are out of balance. We should have artillerymen today preparing 
for a different fight, in many cases, than doing convoy 
security. And that is one of the reasons why growing the Army 
and the active force by 65,000 and in the National Guard 
Reserve by 9,500, we believe by 2011 we will have the right mix 
of capabilities across combat, combat support and combat 
service support so that we don't have to send artillerymen in 
to do an infantry mission.
    Mr. Cooper. Thank you, General.
    My time has expired.
    The Chairman. Thank you.
    General, before I call Mr. Miller, were you around when 
General Meyer was the Army chief of staff?
    General Cody. Yes, sir, I was.
    The Chairman. Do you recall he made the comment to us in 
this Congress, in this room, about the United States Army being 
a hollow Army?
    General Cody. Yes, sir, I do.
    The Chairman. My recollection is that was 1983. Would you 
compare today's Army to the hollow Army of 1983, General?
    General Cody. No, sir, I wouldn't. Chairman, I will----
    The Chairman. Do your best to, please, compare them.
    General Cody. Compare them. Yes, sir.
    The Chairman. All right.
    General Cody. I was in that Army. I was a company commander 
in the 24th Infantry Division. What made that Army hollow then 
was the fact that we didn't have the right training base. We 
were about 10 years into the all-volunteer force. Our soldiers 
were coming out of the training base 65 percent trained on 
their skills.
    At the same time that was happening, we did not have any 
investments, as you know, coming after Desert One, the 
investments in some of what we now call the ``big five.'' So we 
had older tanks, older Cobra gunships, older UH-1 helicopters, 
and we did not have the OPTEMPO dollars to train the total 
force for the mission set at hand. At the same time that was 
going on, I believe that we were completely out of balance in 
terms of the types of forces we had. But I have talked to 
General Meyer, the former chief of staff, and I remember quite 
vividly when he made that statement, and I think he was right.
    What is different today is we have made some very tough 
decisions when we got into this fight. We made decisions like 
we are going to fully train our troops in basic and increase 
the training based upon the mission sets we see. So we changed 
the way we trained.
    We made the tough decision to--unlike Vietnam--keep the 
commanders with the troops the entire deployment cycle. So a 
commander coming in taking over a unit at Fort Bragg, trains 
them up as a unit, builds trust soldier to soldier, leader to 
led, and then deploys, and he doesn't come out of command 
during that deployment. He stays with them and brings them 
home. And I think, even though the personnel accounts--that 
caused all kinds of problems because we had commanders with 36 
months or 40 months of command time when usually it was only 24 
months--we believe that kept this Army together in terms of the 
investment in leadership.
    The other reason why I say that we are not hollow at this 
time is because we have moved to the modular force design, and 
as Congressman Hunter talked about, that increased the numbers 
of equipment that we had and the density of those levels so 
that we didn't have a platoon, like Jessica Lynch's platoon, 
that only had 1 radio in that 10-vehicle convoy and 1 crew-
served weapon.
    And so with the help of Congress, we have been able to keep 
this Army not being hollow, but we have got to continue to 
invest in it and continue to grow it.
    The Chairman. Thank you.
    Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman.
    Thank you to both Generals and to the men and women that 
you represent.
    General Cody, if I can, in following up on some of the 
training issues, involuntary call-ups of individual ready 
reservists. Many of the Individual Ready Reserve (IRR) soldiers 
really haven't conducted real Army training for many, many 
years. And I have got a case--it may be a simple one at that--
where there has been an army captain that was recalled right 
before Christmas, he hadn't fired a weapon in five years. After 
a few months of training here in the States, he was placed on a 
military-training team, sent to Afghanistan to lead combat 
patrols with the Afghan army.
    My concern is are we giving the Individual Ready Reserves 
ample training before they are sent to the field, or is this an 
isolated case?
    General Cody. Well, thanks for that question, Congressman, 
because it allows me to answer it in a little bit different 
way.
    When people talk about stress of the Army and people start 
talking about numbers, everybody is looking at brigade combat 
teams. Brigade combat teams is just one part of the story. We 
have well over 4,000 soldiers involved in military-training 
teams in Afghanistan and Iraq. We have 86 security company 
missions in Iraq and Afghanistan. So it is not just brigade 
combat teams when you start looking at rotations and stress on 
the force.
    On the Individual Reserve soldiers that we call back to 
active duty, one, we try to call back those who have been off 
active duty for a short period of time. But we bring them all--
in the case of the military-training teams, we bring them all 
to Fort Riley, Kansas. We have a very robust training 
environment there to train them as a team and make sure that 
they are certified for the rigors of the mission they are going 
to.
    Mr. Miller. Some are saying that our Army is broken due to 
the high OPTEMPO and the deployments to Iraq. However, the 
reenlistments are currently at high levels, especially those 
that are taking place within the combat zone.
    Would you give us some feedback, sir, on what you are 
hearing from your soldiers on the ground in Iraq as to the 
reasons that they are reenlisting in such high numbers?
    General Cody. One of the things, Congressman, that has made 
me most proud of this generation is the fact that they have 
great resiliency. But we should not take it for granted.
    I just came back from Iraq and Afghanistan. I reenlisted in 
1 formation over 240 soldiers from the 3rd Infantry Division, 
Rock of the Marne. They still had time left in country. They 
don't start coming home until June.
    I talked to many of those soldiers and asked them why they 
reenlist, and I will paraphrase by saying they know they are 
making a difference, they don't want to leave their buddies, 
they are committed to the Army and they enjoy what they are 
doing.
    At the same time, we are in uncharted waters. This is the 
first time we have taken this all-volunteer force to war this 
long. But, more importantly, this surge is not just about five 
brigade combat teams. When we surged, we also added three 
months more of combat time to every brigade and unit down 
range. And when we did that, we also surged every training 
base.
    And so we are in uncharted waters here in terms of what the 
reenlistment rates are going to look like in the next two 
years. But we all should be grateful that these young men and 
women, after seeing what it is like to be in combat, in combat 
raise their right hand and say, ``America, I will stay with 
this. I will defend you.''
    Mr. Miller. General, one more question. It is regarding the 
40 percent shortfall in information operation soldiers. It does 
concern me--and this committee, I am sure--that it is so 
crucial to winning the hearts and minds, encountering the 
propaganda that is being conducted by al Qaeda now. Can you 
talk a little bit about the shortfall in the short term, and 
what are we doing for the long term?
    General Cody. In this setting, what I can tell you, 
Congressman, is this: We have talked to the National Security 
Agency (NSA) director, we have talked to the Defense 
Intelligence Agency (DIA), as well as our own intelligence 
community. We are on a path with this 65K growth in the active 
force to grow more information operation soldiers and officers.
    The Chairman. Thank you.
    Mr. Marshall.
    Mr. Marshall. Thank you, Mr. Chairman.
    Thank you, both, for your service, and especially thank all 
of those that you represent here today.
    General Cody, you talked in your written statement about 
the complex 21st century security environments that we are 
going to be facing in this era of persistent conflict. And I 
have talked an awful lot with noncoms and officers about this 
issue that they are quite concerned about. I know you are as 
well.
    Whether it is counterinsurgencies or nation building or 
building partner capacity or any number of the other kinds of 
challenges that we are going to ask our soldiers to meet and 
our Marines to meet, the quality of the individual soldier 
noncom officer is terribly important to success, and yet at 
this point, at least as far as Army recruiting is concerned, 
the summary given to us by staff is that we are bringing in a 
larger number of recruits without high school diplomas, higher 
percentages from some of the lower mental categories, a lot of 
medical waivers, conduct waivers, and we are having a real 
problem with young noncommissioned officers (NCO)--mid-level 
NCO and officer retention.
    And those I speak with about this issue--they bring it up 
with me--they are concerned that one of the long-term effects 
that this will have on the Army, on the Marine Corps is a force 
that is not as well prepared as it might have been to address 
these complex 21st century security environments.
    And I wish you both would comment a little about that. I 
know you are concerned about it. There have been a number of 
different proposals for how to address it. When I talk to 
college kids, I often say, ``This is the greatest thing you 
could be doing for your country, for your own selves as 
individuals, by getting involved in this. We need our best and 
brightest stepping up right now, and you won't do anything in 
your life that is as exceptional as this opportunity for you 
offers.''
    And if you could talk about that, I don't know whether it 
is money or it is--how do we address this problem, assuming 
that it is a problem?
    General Cody. Thank you, Congressman, for that statement, 
and I agree with you wholeheartedly. And that is why I put it 
in my statement that we have to have a national conversation 
about what it means to serve.
    On the quality issue, we established those quality marks--
Office of the Secretary of Defense (OSD) and all the services--
back when the all-volunteer force started. I talked about 
1983--I am going to give you a quick vignette, and I will go 
quickly so my sidekick here can answer.
    Nineteen hundred eighty-three was a year where we had 60 
percent or so high school grads that year that we recruited in 
the Army--about 84,000 that year--on an Army that was about 
780,000. We had a high percentage of cap force, but, totally, 
if you looked at those marks and superimposed them on the 
quality marks of the citizen--now, this is not the soldier 
quality marks, this is when they come to us as citizens--and 
you superimpose it on the quality marks we have today, it is a 
little bit worse than 1983.
    About 7 months ago I talked to our Command Sergeant Majors 
Academy--260 E-9s that are getting ready to take positions as 
command sergeant majors in our formation--and I said, ``How 
many of you came in the Army in 1983-84?'' Almost all their 
hands went up. I said, ``Good. Now, how many of you were cat 3 
Bravos and cat 4? Keep your hands up.'' A third of them.
    And I told them then, I said, ``When we talk about the 
quality of the force, let us not get hung up on the initial 
marks because my question to you one third that just raised 
your hand is when did you become category 1? When you graduated 
from the basic course? When you graduated from advanced 
individual training (AIT)? When you graduated from your first 
sergeants NCO academy?''
    We take what America gives us and invest in them. Does that 
mean we are having to train harder? Yes. Does that mean we are 
taking 28-year-old soldiers who raise their right hand and say, 
``I have watched this war on TV, and I want to be a part of 
it''--oh, by the way, he owns up to the fact he has a felony 
conviction when he was 16 years old, and we will have a colonel 
look at it.
    The one mark that we haven't talked about is courage and 
selfless service. And the fact that we had 80,000 in the active 
and 175,000 total last year join the United States Army, that 
right now is what I look at. This country has in the 17- to 24-
year-olds--the population that General Magnus, myself and the 
rest of our recruiters go after--in that population today, 35 
percent meet the minimum requirements by those standards 
mentally and physically to be in the military.
    And so when people tell me you have a quality problem, I 
say, ``America, we have got a problem with our youth, and we 
are going to have to deal with it.''
    General Magnus. Thank you, General Cody, for the remarks.
    If I could please respond to the question for the Marine 
Corps, and I agree with General Cody's entire set of remarks 
prior to this.
    Today we have 189,400 active component Marines. Only a year 
ago we had estimated, as we grew the force, that we would have 
3,000 fewer Marines. In other words, we have estimated 186,500. 
America's young men and women are answering the call to the 
colors. The Marine Corps has not diminished its quality 
standards, and yet even with those high-quality standards, we 
have over 95 percent of our enlisted accessions are high school 
graduates, and we have exceeded our target by 3,000 enlisted 
Marines.
    That is not only accession, but we are also turning the 
corner in improving our first and subsequent tour reenlistment 
rates to keep those experienced warriors who volunteered to 
serve and have served on for subsequent tours during a long 
war.
    Additionally, we have 300 more officers than we projected a 
year ago. So not only are America's young men and women 
answering the call, they are answering the call to stay and 
serve longer.
    Some of this is due to improved training. We have 
historically low attrition in our recruit training. We also 
have low losses during the first tour due to improved and focus 
on mental and physical health and in taking care of our 
Marines.
    Today's Marine Corps is a far different Marine Corps than 
when General Cody and I were company-grade officers or, for 
that matter, is a far different Marine Corps than it was before 
9/11. Your Marines are versatile, agile, and they have got the 
experience of combat to prove that they have expeditionary 
combined-arms capabilities appropriate to the missions they 
have today.
    From Iraq to Afghanistan and back to Iraq and back to 
Afghanistan, your battalions and squadrons have shown they are 
combat effective. This is not just the units. This is the 
Marines and sailors that make the combat effectiveness that is 
the units.
    This is not just the active component. This is the Reserve. 
Our Reserve--all nine Reserve infantry battalions have been to 
war, and they are going back to war again, and they want to 
answer the call when the Nation needs them to go to arms.
    Their performance is magnificent, and as General Cody has 
said previously, their resiliency, to me--after over 38 years 
wearing the uniform of the cloth of the Nation--brings tears to 
our eyes. They and their families are performing well, and I 
believe that they are already showing us that they will have 
the capability for the 21st century. They are showing it now.
    As we build the Army and the Marine Corps to the right 
number of soldiers and Marines, the right number of brigades 
and battalions and squadrons, we will have the depth to be able 
to return to a deployment-to-dwell ratio that will allow us to 
give them the training that they would need should there be 
other contingency operations than we face today.
    Thank you, sir.
    The Chairman. Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    And thank you, gentlemen, for being here, for your 
testimony.
    I want to be so bold as to say that, with the two of you 
here, I feel a little bit like I am with family, and I am very 
proud to be part of that family. General Magnus and I started 
serving together probably for the first time 25 years ago--a 
quarter century ago--when we were squadron commanders together.
    And, General Cody, it is a great pleasure and honor for me 
to know that my son is serving with your son in the 101st in 
Afghanistan, repeat overseas tours for both of them.
    And so it is a great family, and I will be so bold as to 
include myself in that family for just a minute.
    Earlier today we heard testimony from General Petraeus and 
Ambassador Crocker, and Ambassador Crocker at one point, in 
talking about the Iraqi government's inability to get things 
done sometimes, he said that their parliament was engaged in 
``lengthy and contentious debate.''
    We know in this Congress a great deal about lengthy and 
contentious debate and sometimes not getting things done or not 
getting them done in a timely manner. Last year we had some 
lengthy and contentious debate over the supplemental, and that 
time period dragged on, and I know that the members of the Army 
and the Marine Corps and all the services started to feel the 
pain.
    We are getting ready to start debate again on another 
supplemental--I understand in the next week or so--and so my 
question to both of you is--and I hope you will both take a 
moment to try to answer it--should we be engaged again in 
lengthy and contentious debate and we don't get the 
supplemental approved in April or perhaps in May or perhaps in 
June or perhaps in July, I would just like to get a sense from 
you on what the impact of that would be on our ground forces 
should that debate extend on and on? Surely, you have taken 
some look at that. I would like to hear from both of you, 
please.
    General Cody. Thank you, Congressman. And your son is doing 
well over there. I talked to him the other day. I am sure he is 
surprised to hear from the vice chief directly.
    Mr. Kline. Shocked, I think, would be the word.
    General Cody. In 2007 this Congress passed the supplemental 
very quickly, and if you remember, we got the $17.1 billion 
upfront, and we got it by the end of October. We were able to 
take that $17.1 billion and energize our depots. But, more 
importantly, we were able to replace our pre-position stocks in 
Kuwait, the heavy-brigade combat team, the light-brigade combat 
team and an infantry battalion for Afghanistan.
    When the surge came, because of that timely investment by 
this Congress to the United States Army, of which we obligated 
by January 2008, we were able to do the surge, and the surge 
units fell in on that equipment.
    This year we didn't get all the money for reset, there is 
still $7.6 billion for the Army sitting out there, and time is 
not on our side. We now have the most brigades deployed that we 
have ever had consuming our equipment, our depots are running 
at 26 million direct-labor hours, and we need that $7.6 billion 
like in October of last year to start buying long-lead items 
because we have got the workforce energized and then, as these 
5 brigades come out, be able to rapidly reset so we can start 
getting in to the time factor of building a strategic reserve. 
And so when I talk about timely and fully funding, that is 
critical to get back to strategic readiness.
    Mr. Kline. Thank you.
    General Magnus, if this drags out on into the summer or 
later, what would happen?
    General Magnus. Thank you, sir.
    I would address it in two parts. First, clearly the fiscal 
year 2008 GWOT that is remaining on the Hill will have impacts 
to us by the end of the summer, certainly before the end of the 
fiscal year. We are concerned about the funds that are required 
for us to continue to grow this force to get Marines and their 
units ready for the long war and for combat. So there is 
hundreds of millions of dollars in basic pay and special pays 
that are required to be able to sustain this force through the 
fiscal year.
    In terms of procurement, we have hundreds of millions of 
dollars of logistic armored vehicles, up-armored Humvees, 
explosive ordinance disposal systems. That, in addition to the 
Navy has got nearly $2 billion of funding to buy replacement 
and new aircraft for sustained operations in Iraq and 
Afghanistan.
    But that is the dollars and cents of the impact, and I am 
confident that the Congress will support our needs, hopefully, 
before the end of April or at latest May.
    The second part of it, though, sir, is that these tough, 
bright, well-educated warriors--and most of them are young 
warriors--they are listening and watching. They have put 
everything on the line. Many of our Marines, who would have 
normally gone back to their communities to go to college and 
raise families and go to the farm, they have extended to go for 
that next deployment. They have decided to reenlist for two to 
four years. They have put family and education on hold to go 
fight this ruthless enemy, to go bring this war to a closure, 
to find, to fix and to finish this enemy that brought the fight 
to Americans here at home or wherever we are. They are looking 
for that sustained support so that their will, their courage, 
their professionalism will be backed up by the will of the 
American people.
    Mr. Kline. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Before I call on Mrs. Boyda, let me ask one quick question 
of each of you. You can answer it with one word.
    General Cody, are you personally comfortable with the state 
of readiness of the United States Army to respond to any 
emerging contingency?
    General Cody. No, Mr. Chairman, I am not.
    The Chairman. Thank you.
    General Magnus, are you personally comfortable with the 
state of readiness of the United States Marines to respond to 
any emerging contingency?
    General Magnus. Mr. Chairman, in short, no. Of course, we 
are sustaining significant risk for other unplanned 
contingencies at this point.
    The Chairman. Thank you very much.
    Mrs. Boyda.
    Mrs. Boyda. Thank you, Mr. Chairman.
    And thank you, both, for your service and all of the men 
and women who serve so proudly and honorably under you. Thank 
you so much.
    I just wanted to ask a quick question for the record about 
Stop Losses. Could I just have some information on what the 
total Stop Losses are in the military in Iraq and Afghanistan, 
and we can do that later. If you want to make a brief 
statement, but I don't want to take my time on that, if I can.
    General Cody. I will give you the exact numbers for the 
record, ma'am.
    Mrs. Boyda. All right. Thank you so much.
    General Magnus. I can give you the exact numbers for the 
Marine Corps: zero.
    Mrs. Boyda. Zero? Thank you.
    When we talk about readiness--and, General Cody, you had 
spoken about pre-position stocks. Can you just give me some 
information on when you see those pre-position stocks being at 
a point when they are ready--if you can share in an open forum 
or wherever--when they are going to be ready to respond to 
another threat that may in fact happen?
    General Cody. Congresswoman, if we get the 2008 
supplemental, we get the full 2009 supplemental and the full 
base budget, we will start building back the four Army pre-
position stocks that are empty today, and we should have them 
built back up by 2013. We will build up the ones in Kuwait 
first so we have some depth there and then fill up the float 
and everything else. Now, that is based upon the level of 
commitment of not having another five-brigade surge.
    Mrs. Boyda. I understand.
    General Cody. Again, it is a time factor.
    Mrs. Boyda. I would also like to just ask a question on--
the week before last on the Sunday talk shows, Mike Hayden, our 
director of our Central Intelligence Agency (CIA), said 
basically we can expect to have another 9/11-type event happen 
and it will probably come from the Afghanistan-Pakistan border 
there.
    If something were to happen--and I assume from everything 
that I have been told in these numerous hearings that we are 
prepared as a country to have overwhelming force with our Navy, 
with our Air Force, Army and Marines, as well, that we can go 
in and respond in some overwhelming way. It is the sustaining 
of some response that begs the question of what would we do.
    And I would just like if you could comment on what do you 
think the options are? What would we be doing if we had to 
respond to another 9/11-type event? What would we do? What are 
our options? Are we ever going to consider a draft? Would you 
ever consider stopping the rotations and leaving people in 
place? What are the options that you see as available to make 
sure that we can not only have that overwhelming force, but we 
can sustain our effort?
    General Cody. Not knowing the true nature of the scenario--
--
    Mrs. Boyda. Let us assume that it is, again, a 9/11. And, 
again, I know the theoretical, and you tend not to answer 
theoreticals.
    General Cody. The issue would be, if something happened, we 
would have to take those next-to-deploy forces, cobble 
equipment sets together because they are not fully equipped 
back home. They are equipped enough to train for the 
counterinsurgency mission in Iraq and Afghanistan, and then, 
when they get there, they get the full-up set. So we would have 
to take those forces. The other forces probably would have to 
stay where they are or, depending upon the situation, be 
redirected by the combatant commander.
    Mrs. Boyda. And I understand, too, if we had another 9/11 
situation, I think the fact of troops of maybe being asked to 
stay would be--in another 9/11 situation, my guess is that many 
of them would be very understanding of that being a necessity 
with our country under attack in that regard.
    Any comments on a draft?
    General Cody. Ma'am, I was in a draft Army. I am now in an 
Army that is an all-volunteer force, General Magnus the same. 
We do not need to go back to a draft.
    In my statement I mentioned we need to get on with 
transforming the National Guard and Reserve to an operational 
force and fill those holes in the yard. Most of the holes in 
the yard that Congressman Hunter talked about were in the 
National Guard.
    Mrs. Boyda. I just have a few minutes. Could you comment, 
then, on the cost of the draft Army versus the cost of an all-
volunteer Army? What it means if you are going to invest in 
incentives or--what are we saying?--the reenlistment incentives 
versus a draft?
    General Cody. It is harder to train, and you don't keep 
them long enough for the investment you make.
    Mrs. Boyda. Thank you.
    I yield.
    The Chairman. Thank you very much.
    Dr. Gingrey.
    Dr. Gingrey. Mr. Chairman, thank you.
    Generals, thank you so much for being here today and for 
your service. We have had a long day of hearings and, of 
course, as you know, earlier hearing from General Petraeus and 
Ambassador Crocker, and the Senate, of course, heard testimony 
from them all day yesterday--the two committees on that side.
    And a lot of members, both in the Senate and the House, 
have asked a similar question in regard to readiness. Our 
distinguished chairman just a few minutes ago asked both of you 
the question about if another contingency occurred, Mrs. Boyda 
referenced a 9/11-type attack would we be ready, and I think 
your response was no. Maybe, General Magnus, yours was no with 
some reservations.
    And I realize that that is a concern. And what my 
colleagues--some of my colleagues--mostly on the majority side 
of the aisle--are talking about we have got a thinly stretched 
force--ground forces--Army and Marines mostly. They are tired, 
and their equipment is wearing out. We have spent too much 
money. Some people say it is $12 billion a month--although I 
think it is closer to $10--and it is time to come home. No 
matter what the situation is on the ground from the security 
perspective or from the political perspective, it is time to 
bring those troops home, give them some rest, reequip them, 
reset them and prepare them for the next contingency.
    If we do that--and this is my question to both of you. If 
we do that and disregard the fact that the surge has worked--is 
working--by any metric one wants to measure--and we have had 
those statistics--and these troopers, as General Petraeus 
referred to them, come home having seen 4,000 of their 
comrades--men and women--killed in action and 20,000 or so 
severely wounded, no matter how well rested and reequipped and 
reset they are, what will that do to their morale in regard to 
going into that next contingency, and what adverse effect, if 
any, will that have on our retention and recruitment?
    General Cody. Thank you, Congressman.
    First off, I support the surge, and I support everything 
that General Petraeus and General Austin and Ambassador Crocker 
and our forces in Afghanistan are doing. I believe this is 
critical to the security of this Nation.
    How we fight it and how we sustain it are two different 
things. The fighting piece, clearly, the generals on the ground 
and the officers on the ground are getting it right. The real 
issue that is facing the Nation is how quickly can we build 
back up our strategic reserve while still being able to have a 
victory in Iraq, have a victory in Afghanistan, take the 
options away from al Qaeda, take the options away from a 
meddlesome Iran and provide security in that region while still 
having capacity to look at places that also have trouble in the 
world that right now we don't have the capacity for.
    And so I do not advocate the discussions of coming down so 
quickly until the job is done because we have invested blood, 
sweat and tears of our soldiers and their families. When I 
presented a flag to one of our fallen family members, I will 
never forget the steely-eyed, stern look the father gave me. He 
said, ``General Cody, make sure that we continue this fight and 
my son did not die in vain.''
    And so I don't know what impact it would have on morale, 
but I will tell that, for the security of this Nation, we have 
got to continue this fight. The issue is how quickly can we 
build back up our strategic reserve.
    Dr. Gingrey. General, thank you.
    If there is some time, Mr. Chairman, if General Magnus 
could respond to that just briefly, I would appreciate it.
    General Magnus. Thank you, sir. I would be happy to do 
that.
    I agree completely with my fellow warrior, General Cody. I 
support--and the Marine Corps supports--the plus-up that was 
needed and is needed to continue this spring and summer as the 
situation in Iraq improves.
    The Marine Corps also supports the additional forces that 
we are sending this very day. Second Battalion 7th Marines is 
flowing into Afghanistan as we are holding this hearing right 
now, 3,400 additional Marines that were not planned to go at 
the end of last year.
    We are growing the force of Marines and soldiers, as well 
as Special Operations Command, to build the capacity that is 
necessary to fight, not just these two campaigns but this long 
war against a ruthless enemy.
    The risks will be in the mistake of not fighting this enemy 
now where the enemy is and waiting for the enemy to come back 
and get us where we live. That is how this started on the 9/11 
that was mentioned by the good congresswoman. We have learned 
that lesson. We need to build the Army, the Marine Corps and 
the Special Operations forces, the Air Force and the fleet that 
will support them so that we will find this enemy where he 
lives, fix this enemy where he lives, and with the help of our 
Afghan and Iraqi security forces, crush this enemy before they 
come back and get us again.
    The Chairman. Thank you so much.
    Mr. Johnson from Georgia.
    Mr. Johnson. Thank you, Mr. Chairman.
    And please accept my humble thanks for the great job that 
our servicemen and women do to protect our Nation, and you go 
to the battlefield without regard to the political implications 
of it or whether or not it is popular or not, you just go and 
do your job. And as far as the war in Iraq is concerned, 4,017 
men and women--our troops--have paid the ultimate price, and 
29,676 have been wounded in combat. And to them, as well as 
their families, and to all of the servicemen and women, we owe 
a debt of gratitude for what you have done and what you will 
do.
    Now, having said that, I would say that one of the things 
that differentiates this country from many others is that we 
live in a democracy. We live in a country where the civilian 
control over the military is a hallmark of what we do. And it 
is our civilians that send the military into these roles that 
they have to respond to. And this war in Iraq is a war that 
once enjoyed the support of the American people, but now 66 
percent of the people want us to bring our troops home.
    And this Congress--this civilian Congress--is not immune to 
the desires of the people who elect us to represent them. 
Eighty-eight percent of the current and former military 
officers who have stated that they believe that this war in 
Iraq has stretched the U.S. military dangerously thin--88 
percent, according to the Foreign Policy Center for New 
American Security, a study that was published on February 19 of 
this year.
    And this is a war that we were placed in by civilian 
authority on the concept that there were weapons of mass 
destruction--that was the reason given--and then later the 
reason given nuclear materials being sought, and then, last but 
not least, there was a link between Iraq authorities and the 9/
11 attack on our country. And all of those reasons for going to 
war have been debunked. And now we find ourselves in a war that 
we can never get a good answer as to what victory is, when 
would that victory be achieved and how will we bring our troops 
home thereafter?
    And so the American public is not in favor of the Congress 
continuing to write a blank check. Notwithstanding the fact 
that we know that this war has strapped our military to the 
point where we are not as ready as we would want to be to 
respond to any other difficulties that may and probably will 
arise.
    In reference to both the Army and the Marine Corps, how are 
extensive deployments of key leaders affecting those services' 
ability to recruit and train new personnel as they attempt to 
grow the force?
    General Cody. Thank you, Congressman.
    When the surge went in, it wasn't just the five brigades 
that went in. We had combat support, combat service support 
troopers that also went with them. But at the same time, we had 
to provide the commander on the ground with 20 brigade combat 
teams--regimental combat teams from the Marines.
    In order to do that, we had to extend all of the other 
brigades that were there to 15-month deployments. What that 
meant was, in the training and doctrine command of the Army, 
where our training base is, it meant that they had to go short 
drill sergeants and captains and others to train the next 
force.
    So currently the surge effect on our ability to train new 
recruits, train brand new lieutenants, the leader-to-led ratio 
or the trainer-to-led ratio is not where we want it to be, and 
until we come off the 15-month deployment so we can start 
recycling, if you were in a unit that was at 15 months, we need 
to get you back. When you get back, we would like to put you in 
charge of training a unit. Right now we don't have that 
capability.
    And so when I say that the surge affected the whole Army, 
in particular, it affects our combat troops for sure, but it 
has put a premium on our ability to get combat veterans back 
into our training base to train the next-up guys and gals.
    Mr. Johnson. Thank you, General.
    General Magnus. Sir, thank you for the question. Let me 
respond, and I agree, again, with General Cody.
    We are adding new battalions and squadrons to get the force 
so that we have adequate capacity in the force and time for 
those at home to get properly rested, reset and trained for 
their future missions.
    As we grow the force with the new brigades, the new 
battalions--we are actually growing the second of three 
infantry battalions as we speak right now--2nd Battalion 9th 
Marines--we need the leaders for those units, as well as to 
supervise the training. That means more drill instructors at 
the recruit depots, it means more instructors in the schools, 
as well as more leadership in the battalions and the squadrons.
    We are also, just like the Army, meeting the demands for 
transition-team advisors in Iraq and Afghanistan, both from the 
Iraqi and Afghan tactical level, right on up through the 
government. This is the war that we have today, and we will 
meet those needs. And as we have said before, this, of course, 
does give us stress on that force.
    Our Marines are responding admirably. They are volunteering 
to extend to go out with their units or to go on independent 
deployment as advisor. They are reenlisting so that we retain 
the leadership, particularly in those mid-grades in the 
enlisted and officer ranks.
    We will grow the Marine Corps to have the right number of 
Marine enlisted and Marine officers in the active component 
well before 2011. We are well ahead of our goals, and our 
Marines that are volunteering to stay, as well as the young 
Americans that are volunteering for their initial accessions, 
we believe they full-well understand the importance and the 
urgency of the mission that the Nation has sent them to do.
    Mr. Johnson. And I definitely support them 100 percent, and 
they are brave men and women who are doing the work. And thank 
you very much for your service.
    The Chairman. Thank the gentleman.
    The gentleman from Texas, Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    Generals, thank you very much for coming today.
    Earlier today one of my colleagues mentioned that General 
Fallon came here early March and requested 2,000 troops for, I 
guess, Afghanistan or something and was told didn't have them. 
I don't know if that statement is accurate or not--I don't want 
to address that. But in a setting like this that you can talk 
about, are there requests for troops and capacities that are 
going unmet right now throughout anywhere in the world at this 
stage?
    General Cody. I know, Congressman, that General McNeill, as 
well as General Cone, who is over there running the training of 
the Afghan army, has asked for a brigade's worth of trainers 
that we have not been able to give them.
    Mr. Conaway. General Magnus.
    General Magnus. Thank you, Congressman.
    We are sending 3,400 Marines, most of whom are on the 
ground right now going into combat operations, in addition to a 
third Marines Special Operations company that is also on the 
ground. If we are asked to go, Marines are ready to go to war.
    Mr. Conaway. But in terms of requests that have been made 
of you, you have been able to fulfill all your requests so far 
for troops?
    General Magnus. We have fulfilled the requests that have 
been made of us for Iraq and Afghanistan. Of course, that has 
caused other unmet demands elsewhere. The 24th Marine 
Expeditionary Unit, which is on the ground now in Afghanistan 
at full strength, was originally intended to go afloat with the 
Navy in an expeditionary strike group to provide the combatant 
commanders a sea-based theater-reserve force.
    As a result of that, we have had to extend one Marine 
expeditionary unit that was at sea and accelerate the 
deployment of another Marine expeditionary unit. So we are 
stretching. We are under stress. We are meeting the demand for 
combat forces first.
    Mr. Conaway. All right. So thank you. What I am hearing you 
say is you are coping with whatever it is that is going on.
    The chairman earlier in his comments talked about how 
critical it is that we reset and refit and fix everything that 
is going on. Has there ever been a country that has been able 
to withdraw from a fight that they were currently in in order 
to be able to do that? Is there a model out there for us to 
look at?
    I mean, the one we have got right now is we have got a 
fight in Afghanistan and Iraq, we have got all this stuff that 
we need to be doing, and we really can't call a timeout 
anywhere that I am aware of that would make that process 
easier. Has there ever been a historical precedent where a 
country has been able to quit or stop a fight someplace in 
order to refit its Army or Marine Corps?
    General Cody. Congressman, I don't know of any model, and, 
again, I don't advocate leaving that dangerous part of the 
world.
    General Magnus. Nor do I.
    General Cody. Iraq and Afghanistan are what they are, but 
that whole region is vitally important to our interests, and we 
need to be moving forward.
    The whole purpose, I believe--the reason why the chairman 
asked for this hearing--is to talk about strategic depth and 
readiness for other things. You asked me a direct question 
about do you have requests for forces that you can't meet? I 
told you of one. But we have other combatant commanders that 
aren't requesting forces because we can't give them to them.
    And so we have got other work that should be done by the 
Marines and by the Army, by our intelligence, surveillance and 
reconnaissance assets, our special operating forces that should 
be doing theater security operations in other areas of 
responsibility (AORs), building partners, training other 
militaries, providing medical support and other things that we 
have done in the past. But because of the demand on the size of 
the force for Afghanistan and Iraq, we are not meeting the 
other things we know we need to be doing in what we call Phase 
Zero operations.
    Mr. Conaway. General Magnus walked down a path. I don't 
question anybody's love of this country or patriotism, and we 
all get an opinion as to whether or not we ought to be in this 
fight in Iraq, and I think we should be there and as hard as it 
is, we have got to maintain the resolution that is necessary.
    But as we have these conversations, I believe it has an 
impact on morale. I believe it has an impact on moms and dads 
deciding to promote military service. I believe it has an 
impact on community leaders and others who help young men and 
women decide to, as you call, answer the call to this country.
    And as folks make these critical comments, which they are 
perfectly right to do, we all ought to understand that they 
have a consequence. And to, out of one side of your mouth, 
praise what we are doing there or praise the people that are 
doing it and then be so harshly critical of what we are trying 
to get done there, to me, is difficult to absorb and not as 
heartfelt as it might have been.
    General, do we track stress things--like suicide rates, 
divorce rates and other home-front stresses--that help us 
understand the depth of the problems here?
    General Cody. Congressman, we do. We take a look at all the 
indicators. I can take that for the record and give them to 
you.
    Mr. Conaway. Thank you, sir.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you.
    General Magnus, I listen to your comments, and I could hear 
the anguish in your voice when you were talking about the 
troops and you said that you hoped that their will would be 
matched by the will--and their courage be matched by the will 
of the American people, and I would say to you that it has 
been. And I am sorry that is even a question, because all of us 
sitting here--and I think around the country--understand what 
we owe our troops and what they have gone through. And so I 
just wanted to make that point.
    But the will of the American people has to do with making 
sure that we are safe around the globe. And when you were 
talking about having these troops in Iraq to make sure that 
they didn't come fight us here, I kept thinking about how there 
were no Iraqis on the plane that day, that they were mostly 
Saudis and that the attacks came--we had training camps in 
Afghanistan, not in Iraq.
    And so my question to you is are we strategically in the 
right place? I think we are all concerned about the safety of 
this country and the safety of our troops. But it seems as if, 
when we are saying things like we expect that the next attack 
will be coming from Afghanistan and when both of you 
acknowledge in some form that we are not quite able to stretch 
across the globe in possible other problems, why Iraq?
    General Magnus. Thank you, Congresswoman. I think I would 
combine my response to your comments, along with some of the 
previous comments from other members.
    I agree with General Cody. I can think of precedents about 
armies withdrawing from difficult fights that they were not 
doing well in, either because the armies were not capable or 
because the leadership changed their will. Right off the top 
Napoleon comes to mind. The Germans and Russia come to mind. I 
don't think those ended the way those nations wanted, and maybe 
those fights were not good fights to have started in the first 
place.
    We are in the process now of sustaining your Nation's 
military that has been sent to war by this Nation against an 
implacable and ruthless enemy, who has the lives of 50 million 
Iraqis and Afghans in their grasp. Now, it is not my purpose 
here to question the political decision of any nation to go to 
war. It is our mission to be ready to properly lead, to 
properly train and equip your military to go to war with our 
coalition partners and the Afghan and Iraqi forces to help them 
be able to build their capacity to do internal defense of their 
nation against an implacable nation.
    It is true that there were other nationalities that were on 
those aircraft in 9/11. I don't know how many Afghans were on 
those aircraft, but we had to go where the enemy was, and we 
are where the enemy is now.
    If I can use a baseball analogy, ma'am, we are in the top 
of the seventh inning of a very long game. There is no time for 
a seventh-inning stretch. We are building the capacity for this 
Nation to fight the enemies where the enemies are, and we don't 
want to, like 9/11, wait for the enemies to come back and see 
us.
    I don't question the patriotism of any of the members here. 
I am simply asking that, unlike previous wars--and I joined the 
military during Vietnam--that the Congress appropriate the 
funds that are necessary for your troops to carry on this 
fight.
    Ms. Shea-Porter. Thank you, General. Now, I would like to 
tell you that my husband was also in the Army during the 
Vietnam era, and I was a military spouse, and I think that all 
of us understand the sacrifice and are very grateful.
    But I still have the same question. I worry very much about 
Afghanistan and the training camps and what we have been 
hearing in testimony lately makes me think that we are in the 
wrong place. And I agree with you that we have enemies around 
the world and specifically in that region, but are we doing 
enough in Afghanistan?
    So let me rephrase the question: Are we heavily invested in 
the wrong tree? Given the problem that we have and the stretch 
of our troops and our supplies, should we be more involved in 
Afghanistan? Are we just in the wrong place fighting and maybe 
we need to change the strategy somewhat?
    General Magnus. Thank you, Congresswoman, and to answer 
your question, I think we are heavily invested in the right 
countries, and we are increasing the number of combat troops--
along with the French and British and our other allies--as the 
Afghans in Afghanistan build their own security forces and 
their professional capability as the Iraqis build theirs.
    These two campaigns of the global war are the war that we 
have against a ruthless enemy, and we should not leave until we 
are assured that our host nations have the capability to manage 
their internal defense. We are doing this. This is a very 
difficult enemy, and it is a very difficult domestic situation 
for both of these countries. I believe we are in the right 
places and we are building the capacity to allow the Nation the 
strategic reserves of forces to cope with other possible 
contingencies.
    Ms. Shea-Porter. Again I would state that I am concerned of 
our ability to respond to an emerging threat, but I thank you 
very much for your service and for your answer.
    Thank you.
    Mr. Ortiz [presiding]. Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman, and, again, thanks for 
this hearing. This has been a great hearing.
    General Cody, you were asked by Chairman Skelton if you 
were satisfied that we are ready for any military contingency, 
and your answer was, no, I am not satisfied.
    You also have in your statement the fact that Congress has 
been to date about $66.5 billion short in terms of the global 
war on terror funding--the supplemental funding for this year. 
And on page nine of your statement, you have a series of 
problems that will occur if you don't receive funding soon.
    You have the Army runs out of pay for active duty and 
National Guard soldiers in June, the Army runs out of operation 
and maintenance (O&M) for the active component in early July, 
for the Guard in late June, two Stryker Brigade Combat Teams 
(BCTs) may not receive whole protection kits before they 
deploy, armored security vehicles could face a break in 
production, Army National Guard will not receive 10 CH-47 model 
helicopters, converting and existing BCTs will not receive the 
bridge to future network's communication system, and the Army 
will be unable to upgrade and construct facilities for 
returning wounded warriors at various locations throughout the 
country.
    So you say you are not satisfied that we are ready for any 
contingency. Would you say that, if the Congress does not act 
to fund these dollars that you have identified, that we are 
contributing to an unreadiness to meet any military 
contingency?
    General Cody. Congressman, I would agree with that. It is 
all about time now, and those things that will happen that I 
hope don't happen. But if we don't get the balance of the 2008 
GWOT supplemental--we have been doing this now for six years, 
and I challenged my staff and we went right down through all of 
those things, and those will all be the consequences of not 
getting the rest of the 2008 supplemental. It will be pushed to 
the 2009 supplemental, and depending upon when that is passed, 
we lose time.
    Mr. Hunter. Okay.
    General Magnus, I noticed you have got a smaller amount 
that you have identified in your statement, but you are--
similarly, the Marines are awaiting funds that have not yet 
been approved in the GWOT supplemental; is that right?
    General Magnus. Congressman, that is correct. Until we 
receive those funds, the Navy and us cannot put under contract 
for this Nation's industry to build the aircraft that we need, 
the ground combat vehicles and equipment that we need, in 
addition to the personnel and operations and maintenance 
expenses that are needed. Our systems command are ready to 
contract with American industry now, and these are all lead-
time away from delivering some of these systems.
    Mr. Hunter. Okay. So would you agree with General Cody 
that, if we don't pass those funds, we--Congress--are 
contributing to an unreadiness to meet any contingency?
    General Magnus. Congressman, the time to build the capacity 
and reset the readiness of the forces is strictly dependent 
upon the funding available. America's families have responded 
and given us their finest young men and women to give us the 
human capital to invest.
    Mr. Hunter. Okay. Let me ask you a couple of questions with 
respect to readiness.
    Do you agree, General Cody, that Army officers are being 
offered inflated bonuses as incentives to address personnel 
shortfalls?
    General Cody. No, I do not agree with that, Congressman.
    Mr. Hunter. Okay. Let me ask you both, gentlemen, I think 
it is fairly clear that you think that a priority for us is to 
pass this global war on terror 2008 supplemental as soon as 
possible; is that right?
    General Cody. Yes, sir.
    Mr. Hunter. What other areas do you think--if we were to 
try to identify actions that would go most toward increasing 
readiness programs, for example? I know it is tough to issue a 
priority right now, but is there any particular program that 
you think is of urgent importance, aside from this broad 
funding that you have got that Congress has pending but that we 
have failed to pass so far? Any particular message you would 
send to us, for both of you?
    General Cody. Congressman, I think, again, we thought 
through and worked with OSD. General Magnus and I sat in many 
meetings and worked through all the budget supplemental 
requests for 2008 and 2009. I believe, if those come in on 
time, that is important.
    Second, we have other programs that we have got to deal 
with: the Wounded Warrior Transition military construction, the 
base realignment and closure (BRAC) funding. Army today is 
executing the most comprehensive organizational and post and 
formation change since World War II, and it is all being linked 
to and synchronized with putting our forces in and out of 
combat and keeping them trained, manned and equipped. But any 
break in BRAC funding, military construction (MILCON) funding 
just causes us more problems as we try to execute this and puts 
more strain on the military families.
    Mr. Hunter. (OFF MIKE)
    General Cody. I do not agree with that statement. The one 
thing that we knew we had to do when this war started, after we 
looked at it, was make sure that we met our moral obligation to 
the mothers and fathers and to this country to send no soldier 
or Marine into harm's way untrained or unresourced. And it took 
us a while to get the resources going, but we stuck very hard 
with the training.
    Mr. Hunter. (OFF MIKE)
    General Magnus. Congressman, I agree with General Cody. 
Absolutely not. We will not send Marines or sailors to war 
unless they are trained and equipped for the mission.
    What risk we are facing is the increasing time to respond 
to other unplanned contingencies, which would require holding 
certain forces in place, retraining and refitting the Marines 
and sailors for the new unplanned mission and considerations of 
additional mobilization of our Reserve component.
    Mr. Hunter. Okay. ``Due to equipment shortages''--I am 
going to read you a statement--``Army and Marine Corps units 
don't train as they fight, instead receiving necessary force 
protection and essential equipment just prior to deployment or 
when they arrive in theater.'' Do you think that is accurate?
    General Cody. That is an accurate statement, Congressman, 
in terms of the improvised explosive device (IED) jammers and 
mine resistant ambush protected vehicles (MRAP) for sure, 
although we are getting better on the IED jammers. I have 
testified before that we would fix that. We have got several 
hundred IED jammer emulators so that our soldiers can train on 
so it is not the first time they see them when they get in 
country.
    On the MRAP, we are training leaders before they deploy on 
the MRAPs, but I am not happy with the situation. I believe we 
need to have MRAPs in the training base so that the first time 
the soldier starts driving is not in combat conditions. And so 
what we have done is place a burden on the combatant commander 
to bring the soldiers over to the issue point and take them to 
the driver's course and train them up very quickly. That is not 
how a great Army should be operating.
    Mr. Hunter. Okay. But aren't you going to have--we just 
talked about this new piece of equipment that we are going to 
get out to the troops very quickly from a foreign military. By 
definition, General, we are going to have to introduce that to 
our people very quickly. They won't have time to work on it for 
years before it gets over because it is new, it is not 
something we have had before, but it looks like it works.
    General Cody. You are right. The training will have to be 
done in theater, like we did with some of the other projects 
that you and I are very familiar with, and we have to do that 
in theater.
    Mr. Hunter. Okay.
    Thank you, Mr. Chairman. Appreciate it.
    Mr. Ortiz. Mr. Loebsack.
    Mr. Loebsack. Thank you, Mr. Chair.
    And I want to thank both General Cody and General Magnus 
for their service and all those who are here in the room.
    And I noticed Colonel Kennedy stepped out for just a 
minute. I have gotten to know him quite well too, and I want to 
thank him personally for his service. He happened to be my 
stepson's commanding officer in Ramadi when he was there early 
on in the conflict.
    I do want to first thank General Cody also for sort of 
broadening out this discussion a little bit, at least by 
mentioning BRAC and MILCON, as I am sure our subcommittee chair 
would want to. I don't want to necessarily put words in his 
mouth but--because it is not just, obviously, having the right 
size force and the right equipment and all the rest--a lot of 
other things that have to do with readiness. And I have been 
honored to be on the Readiness Subcommittee since I have been 
in Congress--I am a freshman. So I do want to thank you for 
mentioning those aspects as well.
    But I do want to ask kind of a fundamental question here 
about how you sort of arrived at the size of the Army and the 
Marines that you believe we need to have. I voted for the 
increase in the size of the Army and the Marines myself. But I 
am just curious sort of what kinds of assumptions you make, not 
only about the world but also I am trying to tie together what 
we heard today from General Petraeus and Ambassador Crocker--
and General Petraeus in particular.
    What kind of assumption do you make, if any, as far as how 
many troops you believe or assume that we are going to have in 
Iraq over the course of the next, say, five years--or whatever 
number of years you use when you decide--when you did decide 
sort of how large the Army should be or, General Magnus, how 
large the Marines should be?
    General Cody. Congressman, thank you. That is a very great 
question.
    We run what we call a Total Army Analysis. We run them 
sometimes three or four times a year.
    We are not sizing this Army based upon the ebb and flow of 
what is in Iraq and Afghanistan. We size it for what we call a 
steady-state security posture, and then we size it for a win 
decisive or major campaign, as well as the ability to conduct 
another type of campaign. And then we look across the mission 
sets of our combat units. We look at the active component (AC) 
and the Reserve component (RC) mix, and we look at all the 
different types of capabilities that we would need, and then we 
put it in motion. In other words, rotate it.
    And you need to size your military for the steady-state 
security posture for one-year deployed, three-years back. If 
you size it for that and then you get into a fight like Iraq 
and Afghanistan, you can move to that force and surge it to a 
one-year in, two-years back.
    Because we went into this fight with a very small military 
that was sized basically for a 1-and-2 steady-state security 
posture, 10 years of peace, no peer competitor, you are now 
running this Army and the Marine Corps at a 1-to-1 or less. And 
that is why the 65,000 in the active and the growth in the 
Marines is so important to both General Magnus and I so that we 
can get the end strength up so that, when this settles down, we 
can put troops in combat for 1 year and guarantee them and 
their families 2-years back.
    Mr. Loebsack. If I may ask, what does that do in the 
meantime as far as length of deployment and dwell times?
    General Cody. It would mean 1-year in, 2-years back at 
dwell time.
    Mr. Loebsack. Right. Okay. And let us assume for the moment 
that we have on a--for a number of years--even though a number 
of us on this committee don't want that to be the case, 
including me but--that we have 120,000 to 140,000 troops in 
Iraq for, say, the next 4 or 5 years. Where does that get us as 
far as length of dwell times and length of deployments?
    General Cody. If we get the Army up to 48 brigade combat 
teams, we will also be in constant mobilization. Every five 
years we will have to get some Reserve component soldiers into 
the fight. That is what operationalize and reserve means. If 
that demand is what we think it is going to be in July, we will 
be at a 1-and-2, which is a surge. We will not be at 1-and-3.
    Mr. Loebsack. Okay.
    And General Magnus.
    General Magnus. Thank you, Congressman. Again, I agree with 
my fellow warrior, General Cody.
    Our objective is, based upon on our own studies as well as 
continuing annual dialogue with the staff of the joint chiefs 
and the combatant commanders in OSD, is to look both at the 
current demand in this war, as well as looking long as we build 
the force. So it is critical that we try to understand the 
steady-state security posture in between crises, as well as the 
impact of either spikes of a short-term crisis, such as a 
disaster response, or a sustained crisis, as we are currently 
experiencing now.
    We are basically looking at the same kind of one-to-one 
dwell challenge that the soldiers are. That is for Marines, 
that is for the tactical units, that is seven-months forward 
and seven-months back, and then you are turning around. We have 
some specialties that are more challenged than that.
    We are building the capacity for the long term for three 
balanced Marine expeditionary forces. So the commanders in 
chief 4, 8, 12, 16 years from now will be able to have, during 
these kinds of sustained surges, should the Nation have them at 
that time in the future, that we can give our troops the 1-to-2 
dwell that they will need to get reset, to get back with their 
families, to get the training they need to be ready for the 
next unplanned contingency.
    Should there not be this kind of sustained high level of 
demand, we ideally would like to get to a 1-to-3 in between 
those major crises, but in this long war, I don't see that 
happening in the near future.
    This also has effect on our Reserve component. Currently, 
the Reserves--and we have a Reserve battalion that is back in 
the fight again--the Reserves are just as eager to support the 
needs of the country as their active component brethren. We are 
building the active component force so that we can return our 
Reserve component to a 1-to-5 dwell.
    Mr. Loebsack. Mr. Chair, if I might just have another 30 
seconds. Is that okay? I just want to make one last statement. 
Is that okay?
    Mr. Ortiz. Make it quick because we have got a lot of 
members who are still waiting.
    Mr. Loebsack. All right. Thank you.
    Because part of this is leading up to the fact that--the 
statement that you made, General, that we should not take the 
resiliency of our troopers for granted, and I have a very, very 
grave concern about the mental health of soldiers and Marines 
and others. We have all heard about post-traumatic stress 
disorder (PTSD), and I think we are just seeing the tip of the 
iceberg perhaps. I have talked to a lot of people at the 
Veterans Affairs (VA) in Iowa City and a lot of veterans coming 
back. And so that is part of why I asked this question in the 
first place. I just wanted to make sure you knew that.
    And thanks, again, for your service.
    And thanks, Mr. Chair, for letting me go over. I appreciate 
it.
    Mr. Ortiz. Mr. Saxton.
    Mr. Saxton. Thank you very much.
    General Cody, General Magnus, thanks for being with us 
today.
    I would like to return to a subject that has been discussed 
on and off here today about training shortfalls and constraints 
due to time that restrict predeployment training, in 
particular.
    I have the honor of representing the busiest mobilization 
and deployment base for Reserve component troops in the 
country, Fort Dix. It might surprise some of you to know that, 
but that is the case. We have deployed more Reserve component 
troops from Fort Dix than any other base in the country.
    And when I leave Fort Dix or when I am at Fort Dix during a 
visit, I have the feeling that there is a high level of 
predeployment training taking place there. The commander of the 
First Army has built a Forward Operating Base (FOB) at Fort 
Dix, they have built an Iraqi village at Fort Dix, they have 
built a trail upon which people are trained to drive trucks 
over rough terrain through sandy soil where IEDs explode along 
the way. And that, of course, is in addition to all of the 
normal training that the folks had prior to predeployment 
training.
    I have also visited Fort Bragg, and if I said to the 
commander of forces at Fort Bragg that there was a shortfall in 
training there, I always had the feeling that he would set me 
straight pretty quickly.
    I have been down to Lejeune and Parris Island, and I don't 
think I would find a Marine at either base that would claim 
that predeployment training isn't what it should be.
    Those are just the feelings from the experiences that I 
have had.
    So I would just like to pose the question to you--some in 
Congress are claiming that there is a lack of training, 
inadequate training, time constraints on training. Would you 
address this problem for us, General Cody and General Magnus, 
as you see it?
    General Cody. Thank you, Congressman. And by the way, I do 
know that Fort Dix deploys more, and we are very proud of the 
relationship.
    Mr. Saxton. I am sure you do. I didn't mean you.
    General Cody. I don't have the exact number, but I do know 
where the monies flow from First Army.
    When we talk about training, if you remember, in my 
statement somewhere--and I probably wasn't as clear as I should 
be--we are the best trained for the contingency we are fighting 
today, but our forces' training focus is too narrow. And so if 
you asked an artilleryman or you ask an armored commander or a 
Bradley commander, ``Are you training to all your core mission 
essential task lists in the 12-month dwell that you have?'' 
Because we are spinning so fast, he would say, ``No.'' ``Are 
you trained to the mission that you are going to get in Ramadi 
or Taji or Baquba?'' He would say, ``Yes.''
    General Magnus. Congressman, thank you. I agree, again, 
with General Cody.
    And thank you for the comments about, not only Fort Dix--
and Marine Reserves go there too--but Parris Island, where we 
get about half of our enlisted through recruit training.
    Again, as General Cody indicated, counterinsurgency 
operations and transition team training are the focus of the 
two campaigns of this global war that we have talked about 
today. The Marines who are forward deployed and those who are 
next to deploy would tell you they are at the highest levels of 
readiness in terms of personnel, training of those personnel, 
and as they train on their equipment and fall in on the 
additional equipment in theaters, they are at the highest 
levels of readiness.
    What the shortfalls are are the shortfalls in full-spectrum 
or multiuse training that would be for other unplanned 
contingencies. For the Marine Corps, this means the focus on 
counterinsurgency diminishes the time available for combined-
arms training--artillery, firing your tank tables, working with 
close air support--that we did before we did Operation Iraqi 
Freedom (OIF) on the march on Baghdad.
    It also means that we have a generation of company-grade 
officers now who studied about amphibious operations in the 
basics school and in some cases never set foot on a ship.
    As we grow the force this year, we are putting our first 
basics school class back on ships. So we are getting enough 
capacity now to make sure that the Nation has the land forces 
with the full-spectrum capabilities necessary so the combatant 
commanders don't have to wait for us to retrain and reset the 
force as we build the right capacity, sir.
    Mr. Ortiz. Mr. Sestak.
    Mr. Sestak. Thanks, Mr. Chairman.
    General Magnus, you said we should not leave Iraq--or we 
should not leave until nations can handle their internal 
defense. That is a very significant policy statement.
    You also said we should not--we will not send troops to war 
unless they are trained and equipped.
    Each of you, could I ask just for a one-word answer to this 
question:
    You have a Congress that is supposed to provide by the 
Constitution for the common defense. Forty percent of our 
Army's equipment is in Iraq. For almost three years, we have 
trained on nothing except counterinsurgency. Twenty-eight 
thousand troops who wear the cloth of our Nation are in South 
Korea, where the timeline to defend them by the Army cannot be 
met, nor any timeline for any war plan.
    You said there was significant risk to a second 
contingency. Is that based potentially on probability and yet 
who predicted the first Korea war or World War II or 9/11, 
where we then struck back? Is it a legitimate question, 
therefore, for Congress to ask at how long and at what cost do 
we pursue the strategy in Iraq as we do our duty of providing 
for the common defense?
    That is a yes or no, please, General. Is it a legitimate 
question for us to ask that?
    General Cody. I believe yes.
    Mr. Sestak. Thank you.
    General.
    General Magnus. Of course, it is a legitimate question.
    Mr. Sestak. I only brought that up because I think we 
absent our responsibility if we didn't. Men and women wearing 
the cloth of this Nation, I think, were well represented by 
General Pace when asked the question, are they upset by this 
discussion of what is right or not right about the war in Iraq, 
is that our troops tend to be smart today, and they understand 
that is a legitimate role of Congress.
    And the second question has to do, General--42 percent of 
the recruits that are coming into the Army today are in the 
below-average mental category. And I very much understand that 
we have the best Army today. It can't do what is required, 
according to our war--timelines, which is, I believe, the real 
debate and the failure of what people call the ``Petraeus 
report.'' He should have just told us what he is doing in the 
military--security in Iraq. This discussion of overall 
America's national security from defense to the economy being 
affected by it, et cetera, is what we really should be 
debating.
    And I thought you said it very well, General. We can get 
these recruits up to snuff and we deal with it, we take what we 
can, we do, we must. Why not, then, do away with measuring 
mental categories if we are not that concerned about it? 
Because, when I was in the military, we were very concerned 
about it because that is who is going to run your Future Combat 
System (FCS) in 20 years from now.
    General Cody. I agree with your assessment. The reason why 
we have them--and it has been explained to me--the high school 
grad is a measurement of stick-to-itiveness. The Armed Services 
Vocational Aptitude Battery's (ASVAB) scores tells us how we 
look at each one of them in terms of trainability.
    And we invested these young men and women and so--I don't 
know what category I was, but I waited a long time to receive 
my diploma at West Point.
    Mr. Sestak. I was probably 4D.
    General Cody. But I will tell you, it has nothing to do 
with measuring their human potential. And what we are seeing is 
these young recruits that are coming in--4th and 5th year and 
6th year into this war--we can train them----
    Mr. Sestak. Then why not do away with the measurement? If 
you are so comfortable, why measure it?
    General Cody. I will go back and look at it. I mean----
    Mr. Sestak. I asked the Secretary of the Army the same 
question six months ago, but I would love an answer to that. 
Because I do believe in their bravery, but, boy, I will tell 
you, we always seem to want the best and the brightest, 
particularly as you head toward FCS.
    If I could ask another question----
    General Cody. I will tell you one thing. In combat our 
soldiers don't ask what category you were in. They just want to 
make sure you can shoot well.
    Mr. Sestak. Sir, trust me, I know from my 31 years that is 
the issue out there. But we also know that there were some who 
could maintain that equipment better than others so it did 
perform when we needed it. Am I wrong, General?
    General Cody. No, you are right----
    Mr. Sestak. Can I ask another question, please?
    Third Division--what is the rate of Stop Loss in the 3rd 
Division?
    General Cody. I don't have that figure, but I do know that 
we probably Stop Lossed in the hundreds when we act--and you 
have got remember, now, you have got four brigades in that 
division so I would have to go back and take it for the record. 
But normally we are seeing about 200 to 300 Stop Loss per 
brigade as we get to deploy them.
    Mr. Sestak. Two to three?
    General Cody. Two to 300 is a round number. I will take it 
for the record----
    Mr. Sestak. The only reason I question that ASVAB is I have 
talked to several--ID people, and to some degree defined--as 
General Petraeus talked--to find retention that we are having 
there some believe is an outcome also of Stop Loss. In a sense 
you have a choice: X amount of thousands of dollars to reenlist 
for several years or Stop Loss, go to Iraq without it.
    And let me end my question because I am just about done.
    General, I honestly do believe that we have the best today, 
but I honestly believe it is a very legitimate question to ask 
two things: Is it going to be the best military for the future 
and the long-term risk as we see what comes into the force? I 
don't question their bravery at all.
    And, second, General Magnus, I honestly believe that that 
policy statement of yours is one that it is someone else's to 
weigh the risk attendant to America's overall national security 
of whether we stay until they can ensure or we change our 
strategy to do it.
    Thank you.
    General Cody. Mr. Chairman, if I could just comment?
    The Chairman [presiding]. You bet.
    General Cody. Thank you.
    We will retain the quality of this force if we take the 
long-term view. We have got to grow the force, we have got to 
invest in the force, and we have to have a national 
conversation about what it means to serve. But we will retain 
this quality force if we do those things.
    General Magnus. And, Mr. Chairman, the policy of the use of 
the military forces of the United States are determined by the 
Commander in Chief and, of course, in the dialogue that is 
right, necessary with the people's representatives in the 
Congress.
    The Chairman. Thank you, gentlemen.
    The gentleman from Mississippi, Mr. Taylor.
    Mr. Taylor. Thank you, gentlemen, for your service.
    And, General Cody, again, I want to thank you for your very 
prompt assistance to help the family of the young Guardsman who 
died trying to save some folks during Hurricane Katrina. I know 
it didn't bring him back, but it certainly made life a little 
bit easier for his family what you did.
    I wish you would go back to the subject of the jammers and 
the MRAPs, because for 18-plus years I have sat in this room 
and listened to you and your predecessor say, ``We train as we 
fight,'' but we both know in the case of MRAPs and jammers we 
are not.
    I was curious what initiatives were underway to try to get 
to the point where we are training as we fight? I sure hope I 
don't go back to Camp Shelby anytime soon and see another box 
strapped onto the front of a Humvee that says ``IED jammer'' 
and the thing is empty and it is just--and what is 
particularly, actually, galling--I have never actually heard 
you say it, but I have heard some very senior people in the 
DOD, starting, quite possibly, with the Secretary or previous 
Secretary, will say, ``It is just a gadget. You turn it on, and 
it works.'' Well, if that is so, then why did the Army go and 
get electronic warfare officers from the Navy to explain to 
your units how important it was to use it at the right time, 
how it is going to jam their radio transmissions and how the 
terrain around them is going to affect it. It isn't. It is more 
than just turning something on, and, quite frankly, if it is 
going to save people's lives, we needed to be training with 
that more extensively.
    Same thing with MRAPs. I realize that there is a production 
challenge, but I would think trainers, such as I know the Army 
has at Fort Leavenworth for vehicles, could be produced on a 
separate line, could be made available, could actually be run 
24 hours a day, you could run your folks through that.
    Why isn't there a higher priority to getting those two 
things done?
    General Cody. First off, Congressman, I agree with you on 
the jammers. In this setting I will say that it is not just 
turning it on. There is a frequency spectrum knowledge that you 
have to be trained to. It is an understanding of the 
electronic-magnetic interference of your other systems. And we 
are training people now and have been training them. Hopefully, 
you won't find that box--I hope they got rid of it. But we have 
bought more of the Duke systems, of the Acorns and others that 
we now have issued to First Army.
    But we have to deal with--and I hope you can appreciate 
this. Because of the frequency spectrum, we have to deal with 
what else is around in terms of jamming other things that may 
be kind of critical, like air-traffic control and stuff like 
that.
    But I believe we are getting better there, and the Navy was 
very helpful to us in getting their electronic warfare 
officers, and we now have a course, and we are starting to 
replace those guys. And I think that you will be pleased to see 
the progress we have made.
    But if you remember, everything that was coming off the 
line back then, we were more concerned about getting it, 
testing it, giving the new equipment training in theater, which 
was not sufficient at all and not the place we wanted to be, 
but it was the best we could do at the time to get it off.
    We find ourselves the same way in MRAP. We do have 25 
vehicles from the MRAP University, and we are sending our 
master drivers and our master trainers to that so that when 
they deploy with their soldiers and go to the issue points--
there is five issue points over in theater--and they take their 
soldiers through it and train them up, the leaders are trained 
ahead of time before they deploy. That is not a place we want 
to be either.
    We have a requirement for 600 MRAPs for the training base 
and for the next-to-deploy soldiers, but we can't get to them 
until the end of October so that we meet the theater 
commander's requirement of what he needs for the Army, and it 
is saving lives over there. And so we will be at that state 
until October, until we can start putting some in the training 
base. Not the answer I want to give you, but that is where we 
are.
    Mr. Taylor. You might have noticed I have signed a letter 
or two during this hearing. It is from the Military Retiree 
Organization. It starts off by saying, ``Military leaders have 
called for a $2,000 increase in their TRICARE costs.'' You two 
guys strike me as military leaders. I was curious if either of 
you gentlemen thought this up, or is this something that came 
out of the White House?
    General Cody. I haven't seen that, Congressman.
    General Magnus. I am not aware of it, Congressman.
    Mr. Taylor. Well, I think you just answered the question. I 
think it is an initiative of the White House for the seventh 
straight year to increase health-care co-pays for military 
retirees and, hopefully, for the seventh straight year this 
committee will defeat that measure. But I just wanted to get on 
the record I don't think it came from you two gentlemen.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Assume, Generals, the Iraqi war stops tomorrow, the Afghan 
war stops tomorrow, how would you reset the United States Army 
and reset the United States Marines to make you personally 
comfortable with the state of readiness for the Army and the 
Marines respectively?
    General Cody.
    General Cody. Well, first, under that assumption, Mr. 
Chairman, there would be a detailed plan of the mission set of 
the units in either Afghanistan and Iraq to move to operational 
and strategic over watch and so that the units coming out were 
coming out in an orderly fashion.
    What we would have to do to get back to strategic readiness 
is to get our depots even more ramped up than they are and 
immediately go back to full-spectrum training--and by full-
spectrum training, to include counterinsurgency training. One 
of the things that we did not do after Vietnam was we did not 
include counterinsurgency training as we built up our training 
base. We left that to our special forces. And so we would 
continue the counterinsurgency training but get back to the 
full maneuver training that we have at our training base.
    And then what we do is probably try to accelerate the 
growth of the Army so that we can build the strategic depth we 
need and then finish converting the Reserve component to an 
operational force.
    The Chairman. Thank you very much.
    General Magnus. Mr. Chairman, would you like an answer from 
the Marine Corps on this?
    The Chairman. Yes, please. I was about to call on you. 
Please?
    General Magnus. Sir, thank you.
    Agree, again. As we build the capacity, another way of 
doing that is reducing the demand signals so should there be a 
significant drop in the demand for forces for Operation Iraqi 
Freedom and Enduring Freedom, we would also return to a 
multiuse or full-spectrum training to be ready for other 
potential contingencies.
    There would be an extensive multiyear depot maintenance 
program for the equipment that would be flowing back from those 
campaigns as the unit requirements dropped and as the ships in 
the maritime pre-positioning squadrons came into Brown Island 
for their own maintenance cycle and the aircraft will return 
for theirs.
    We would also finish growing the force, which we anticipate 
doing within the next three years. The 3rd Marine Regiment 
would go back to Hawaii, and the 4th Marine Regiment would go 
back to Okinawa and be able to stand or watch in the Western 
Pacific, and we, with our shipmates in the Navy, would return 
to a steady-state security posture, which includes providing 
forward-deployed expeditionary strike groups and Marine 
squadrons on the carrier strike groups to provide the theater 
commanders the contingency forces forward, sir.
    The Chairman. Thank you very much.
    General Cody, in essence, you would abide by the brand-new 
almost-printed new manual--am I correct?--when you speak about 
full-spectrum preparedness?
    General Cody. Yes, Chairman. A new doctrine, 3.0. Yes, sir.
    The Chairman. And it looks like the Marines have read the 
same thing?
    General Magnus. Yes, Chairman, that is correct.
    The Chairman. Thank you.
    Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    And thank you, General Cody and General Magnus, for being 
here.
    General Cody, how long have you been in the Army?
    General Cody. In June it will be 36 years, sir.
    Mr. Forbes. General Magnus?
    General Magnus. General Cody is a youngster, sir. It will 
be 39 years this summer.
    Mr. Forbes. Well, for both of you, thank you for your 
service, and please understand, as I am asking my questions, if 
I put you in a position where I demand a yes or no answer, you 
can't explain it, forgive me. I have too much respect for you 
to be there. So I am not going to put you in that position.
    And earlier today we talked about statistics, and we hear 
everybody throwing these statistics out. One of the things we 
sometimes forget, when we were fighting for the most important 
thing we had--our freedom in the Revolutionary War--if we would 
have had pollsters then, the pollsters would have said about 33 
to 34 percent of the people then favored fighting for freedom, 
about 33, 34 percent were against it, and about 33 or 34 
percent didn't care.
    We heard about 66 percent--a figure thrown out today--
wanting to bring our troops back, and yet I look and I hear all 
these words about how the Army is broken, the war is lost, 
everything has failed, everything is horrible. Somebody can 
come into one of these hearings with a costume with makeup on 
their hand and stand up, and every photographer in here is 
going to take a picture of them.
    Behind you, you have six of the best men and women probably 
we have in the country today. My suspicion is that each of them 
has a story of courage, commitment and sacrifice. But if you 
stand up, we are not going to take a picture of you, and we are 
not going to write a story about you, and we wonder why we get 
that 66 percent number.
    So what I want to do is take just a moment and take a 
breath and look at this from a big picture. My suspicion is, in 
all the years that you guys have served, there has never been a 
Camelot period, where you looked and said you didn't need some 
tweaking in training, some additional equipment, something that 
you had that you could make better, both the services that you 
served in.
    The other thing I would say is that we have had witness 
after witness after witness come before us, then, when they 
look at the big picture, they say, ``This force we have today, 
despite some of the tweaking we need to do and some of the 
shortfalls that we have, is the most experienced, the most 
professional, the most adaptive, and the most capable force in 
the world and that we have ever fielded.''
    One question I have for you today is do you agree with 
that?
    Second--and I just want to get these out in the short five 
minutes I have. Before we started this in 2000, we had these 
holes in the yard that you guys have talked about before. As I 
understand it, that was about $56 billion of needs we had in 
2000. You guys have fought a war. Basically, you have done all 
the stuff you have done, and we have reduced that number from 
$56 billion. The last statistics I saw show that you were on 
track to have them down to $17 billion--huge success there.
    And then you have also moved from the strategic reserve--
where everybody is talking about being ready for all these 
contingencies--but back before you began fighting this battle, 
we were in a posture where we had strategic reserves, which 
meant you would have had to have ramped up if you had one of 
these contingencies, and you guys have moved to--moving to 
operational reserve at this particular point in time.
    And the reason I throw all those things out is because it 
looks like to me--I don't know how we talk about all of those 
questions when the huge problem we have for your readiness is a 
supplemental that is sitting somewhere that is not getting the 
funds that you need to do what you really need to do.
    And so, General Cody and General Magnus, my question for 
both of you today is, if that supplemental doesn't come forward 
in a timely basis, what specifically is going to be denied you, 
denied the Guard, that is going to hurt us and hurt their 
readiness because I think that is the issue we need to be 
addressing and getting before this committee today?
    General Cody. Congressman, for the Army, we start running 
out of military pay for our force in June, we start running out 
of----
    Mr. Forbes. Okay. Let me just stop you there. So that means 
that, despite the fact that what we are talking about pay 
being--we start running out of pay in June?
    General Cody. That is correct. We start running out of 
operational dollars that we can flow to the force either down 
range or back home in early July for the active, by the end of 
July for the National Guard.
    But I will tell you it is a cumulative effect. We have had 
late supplementals two or three times since this war has gone 
on, and this one here being late during a time, when we have 
asked our soldiers and families to surge for 15 months, we are 
in uncharted waters.
    Mr. Forbes. So that means that, even a delay--even if the 
money ultimately comes--the delay means you have to start 
making decisions earlier rather than later that could be that 
you couldn't withdraw those decisions down the road; is that 
correct?
    General Cody. We have to run contingencies. That is 
correct.
    Mr. Forbes. General Magnus.
    General Magnus. Sir, thank you.
    If we don't get the supplemental in a timely manner, as I 
said before, sir, it will simply mean that we, number one, 
delay procurement of warfighting equipment until such time as 
the Congress appropriates the funds and it becomes law.
    The Army and Marine Corps--literally in that order--in the 
fourth quarter will run out of the necessary manpower funding 
and the necessary operation and maintenance funding, and we 
will, of course, support the troops forward, but that will 
simply mean that we begin to ratchet down operations at home, 
and that includes depot maintenance.
    I am confident that we will be supported in the request for 
these funds.
    The Chairman. Dr. Snyder.
    Dr. Snyder. Does poor Mr. Courtney ever get to go, Mr. 
Chairman?
    The Chairman. Does Mr. Courtney want to go?
    Dr. Snyder. Yes. I will go last.
    The Chairman. We will be glad to do that.
    Mr. Courtney. After the lunch break so thank you, Mr. 
Snyder.
    I want to thank Mr. Chairman also for holding this hearing 
and the witnesses, both for your service but also for your 
frankness today and not pulling any punches in terms of the 
testimony that you have given.
    Recently in Hartford, Connecticut, where I come from, 
General Eric Shinseki spoke to a large gathering veterans' 
ceremony, another distinguished public servant who also spoke 
frankly and, I think, will go down in history as a prophet, 
frankly, about this whole episode and time of our country's 
history.
    And there was a large number of people in the crowd 
expecting him to talk about his testimony before the Congress 
prior to the conflict and the honest answers that he gave about 
what he thought the proper troop size was and the consequences 
that he suffered as a result of that.
    But instead what he talked about when he spoke to the crowd 
was what he saw as the fallout and the--after Vietnam in terms 
of the loss to the officer corps of the military--the hollowing 
out that Mr. Skelton referred to earlier--and expressed grave 
concern about the fact that we are now entering a somewhat 
similar period in our history.
    The New York Times reported that half the graduating class 
of West Point 2001 left military service. General Petraeus 
earlier today, when he was talking about the success in terms 
of recruitment enlistment of enlisted men, did point out the 
fact that retaining the captains still is a challenge for our 
armed forces.
    And I was wondering what, in the context of military 
readiness, it means to our country that really the best and the 
brightest are not staying with their original plans?
    General Cody. It is a serious concern, Congressman.
    By the way, five of those captains have my last name, and 
so I get feedback.
    We have run a retention bonus on our captains. We need to 
retain the best and brightest. Twelve thousand of them took it. 
This past year we just opened it back up for the rest--for the 
year groups again to get another shot at it, and hopefully that 
will bring more of them to stay with us.
    The reason why we need them to stay with us is, when we 
grow 6th Infantry brigade combat teams by 2011, that is 36 to 
37 captain company commanders we need. It is 40 new majors we 
need, so many new lieutenant colonels. We have to start growing 
them now and retaining them now. So as we grow this Army out, 
on the active side in particular, with a 65K force that we are 
going to grow it to, we need to retain these captains because 
they are going to be the majors and lieutenant colonels that 
are going to be leaving these outfits.
    So it is very important to us. We are watching it closely. 
I have been to most of the training bases and talked to the 
captains that are just coming back from the war. We have sent a 
brigadier general out with a team to talk to the captains of 
the units coming back from 15-month deployments.
    At the end of the day, those who are leaving has to do with 
they don't--they are having a struggle between their family 
life and staying with an Army they love. And it has all to do 
with the fact they don't have enough dwell time in between 
deployments, and we shouldn't put them in that position. It 
breaks my heart when a young captain says, ``I am so proud of 
what I have done, this is my second tour, but I have to make a 
choice between seeing my daughter's birthday and all the 
things,'' and he said, ``I just can't put my family through 
it.'' We should not have them in that position. That is why 
getting this force size is so important to us.
    Mr. Courtney. Thank you. My time is almost up, but I have 
talked to families back home who have described exactly that 
torn feeling and the fact that it is the dwell-time issue that 
really seems to be the biggest factor that is driving people 
out of the force. And hopefully the President is going to 
change that proportion, as been reported in the press, in the 
next 48 hours, 72 hours or so because that--General Shinseki 
clearly conveyed that message is that, if he had to describe 
what he thought was the biggest future challenge to our 
country's military readiness, it is the damage that has been 
done to the middle ranks of our armed forces.
    Yield back, Mr. Chairman.
    The Chairman. Thank the gentleman.
    Mr. Bartlett, Dr. Snyder, then Mr. Saxton in that order.
    Mr. Bartlett. Thank you.
    Thank you, gentlemen, for your service.
    What do I say to those who ask me why Stop Loss isn't a 
backdoor draft?
    General Cody. First, Congressman, thanks for the question.
    It is because it is the law. It is the military service 
obligation. It is part of every contract.
    We do not like Stop Loss. I wish we weren't in the position 
that we had to use it. But we are executing Stop Loss because 
of the short turnaround cycle of the units with 12 months dwell 
time back at home, we have to keep unit integrity and unit 
cohesion and key people, and so that is one of the reasons why 
we have instituted it.
    We started it, as you know, early just for high-demand, 
low-density military occupational skills, but when the war 
continued second, third and fourth rotation, and access to the 
National Guard, after we spiked up in 2005, we have had to keep 
Stop Loss in.
    But it is not a backdoor draft. The contracts are clear. I 
wish we don't use it, but----
    Mr. Bartlett. As necessary as it may be, to what extent do 
you think it may hurt recruitment?
    General Cody. I hope it doesn't hurt recruitment. It hasn't 
so far. I will say that many of the young soldiers who end up 
being Stop Lossed turn around and reenlist in the combat zone. 
But we shouldn't put them in that position. We need to steady 
out this force so we don't put this on their backs, and that is 
why getting the force right and getting the dwell times back to 
where they need to be is so important to us.
    Mr. Bartlett. General, at a hearing here last March you 
testified that we have the best counterinsurgency force in the 
world but they are not trained for full-spectrum operations. I 
shouldn't conclude from that that you believe that we are 
adequately equipped?
    General Cody. The units back home today are short equipment 
for not just the counterinsurgency fight but for a full 
spectrum. So we would have to move equipment around if we were 
to move to another battlefield for full-spectrum operations. 
But the units across the board right now have enough equipment 
back home to train for the mission they have in Iraq and 
Afghanistan but not enough time to train for full-spectrum in 
order to have all the equipment for it.
    Mr. Bartlett. Which of those two shortages is the more 
acute, people or equipment? We can fix the latter with money. 
The former is a little more difficult.
    General Cody. Right now in the first six months, it is 
both. It is people and equipment. Because, as I said, the surge 
took all the stroke out of the shock absorber for our personnel 
accounts. And so in the first six months of reset, it is people 
and equipment. The last six months, if you are talking about 
full spectrum, it is time and equipment.
    Mr. Bartlett. General Magnus, let me ask you a question 
that may be of more concern to you.
    We found that the Humvees were very susceptible to IEDs, 
and so we have now deployed at considerable cost a large number 
of MRAPs. The enemy, in response to that--and I gather that, 
because we now find more explosively formed penetrators (EFPs) 
and they are clearly placed by more professional people because 
we cannot find anywhere near the percentage of EFPs that we do 
of IEDs, that the enemy knows that they are more effective. 
These, of course, can bring down a tank.
    At what point might our service people in the MRAP 
threatened by EFPs be no more safe than they were in the Humvee 
threatened by IEDs?
    General Magnus. Thank you for the question, Congressman 
Bartlett.
    We continue to evaluate, along with the Army--and, quite 
frankly, the Navy and the Air Force are also using increased 
armored protection, including the MRAPs both in Iraq, 
principally, and to a lesser extent in Afghanistan--we continue 
to evaluate the requirements.
    In Al Anbar province, where the majority of Marines are in 
Iraq, this is more than just about the nature and the 
capability of a single IED or EFP, which are right now at a 
tiny fraction of the number of incidents--and incidents 
includes actual attacks, as well as those that are turned into 
us by the Iraqis own security forces--a tiny fraction of what 
it was 18 months ago.
    When we initially went with the Army to the Joint 
Requirements Oversight Council and started what was a 
tremendous response to the request for these MRAP vehicles back 
in January and February of last year, the number of incidents 
was at a high and immediately began a decline because of a 
variety of things, and it was not the least of which, of 
course, was the vehicles, but it was also the effectiveness of 
our tactics and the Iraqis.
    Explosively formed penetrators are not currently a 
significant portion of the incidents in Al Anbar. They are much 
more of a concern in Baghdad and the areas to the east, sir.
    Mr. Bartlett. Thank you, Mr. Chairman.
    The Chairman. Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman.
    And thank you, Generals, for being with us.
    And, General Cody, I have sat through many a hearing with 
you and appreciate your service through all these years, and 
perhaps we will see you in this setting before you leave, but, 
if not, we certainly wish you well.
    I also always appreciate your no-nonsense style about 
things. We have had several discussions back and forth today 
about what happens if we don't have a supplemental pass in a 
timely manner, and I appreciate your being very straightforward 
about that. And in your statement you list the things that 
could happen, and I think there will be bipartisan interest in 
seeing that this happens in a timely way.
    But I also think we need to--you were also very clear in 
your statement--and I am just going to read from page nine, 
which didn't get read when the list was read--in which you 
state, ``Congressional action on the balance of the GWOT 
request prior to the end of May will provide funds in time to 
prevent any disruption in operations or programs.''
    So I think in the intent of Speaker Pelosi is to have that 
done before we recess for Memorial Day, but I think it is 
helpful that you have laid out that list of the things that can 
happen if that is not done.
    I wanted to pursue a little bit--Mr. Conaway began the 
discussion, but I was going to ask about it anyway, which is 
this issue that Admiral Fallon first brought to our attention 
on March 5--sitting right where you are, General Cody--about 
the need for 2,000 troops, primarily trainers, for Afghanistan. 
And I think there were a number of concerns. I know it concerns 
you. You have got a combatant commander saying he needs 2,000 
troops for a war zone right now, today, not 6 months from now, 
and yet we don't seem to have the ability to meet that need.
    My first question, though, was piqued by what you said 
about that response to Mr. Conaway, which you said--if I heard 
you correctly--which is you have other requests from combatant 
commanders that--well, I guess they are potential requests that 
are actually not being made because they know they can't be 
met.
    One of the fears that some of us have had over the last six 
or seven years is that we would hear from the then Secretary of 
Defense that any need from combatant commanders is being met, 
but some of us have feared that word has gotten around they 
can't be met so the requests aren't being made.
    Of those that you have in the back of your mind, when you 
know there are combatant commanders out there that have needs, 
that they would make the request if they thought they could be 
met, what other ones relate to the war in Iraq or Afghanistan, 
other than Admiral Fallon's request for the trainers for 
Afghanistan?
    General Cody. Thank you, Congressman.
    Most of them deal with theater security cooperation, 
whether it be in the U.S. European Command (EUCOM) or U.S. 
Pacific Command (PACOM) or U.S. Southern Command (SOUTHCOM) 
AOR. Many of them deal with civil affairs and psychological 
operations (PSYOPS) deployments, medical teams to South 
America--the Medical Readiness Training Exercises (MEDRETEs) we 
used to run down there--Special Operations training with other 
countries armies, reinforced by a company of Army troops.
    Those types of operations for theater engagement are 
critical to us worldwide so that we can assist countries that 
want to partner with us and help them build and train with 
their military. In Europe I know of a couple exercises that we 
could not get the right numbers of troops there because we were 
so stretched other places. We had the same problem on one of 
the Korean exercises. And so we end up having to cobble 
together capabilities that weren't really what the combatant 
commander wanted.
    Dr. Snyder. So there are not any other specific requests as 
straightforward as Admiral Fallon has requested?
    General Cody. That affect GWOT, no.
    Dr. Snyder. Help me understand about the 2,000. So Admiral 
Fallon specifically said he needs 2,000 today in addition to 
the Marines that are either going or about to go. When Admiral 
Keating and the commandant were here, the commandant said he 
didn't have the troops. Admiral Keating said--I asked him, ``If 
you were required to come up with 2,000 troops from your 
command, could you find areas where you could do without 2,000 
troops?'' and he said he could. Subsequent to that, we had 
Admiral Mullen, who said, ``Well, Admiral Mullen needs to talk 
with us because we can't find them.''
    Now, what I don't understand is why can't we find those 
troops? In terms of balancing of risk for a period of time, 
could we do with 1,000 less troops in South Korea and 500 less 
or 1,000 or so less in Japan? I mean, I am just--you all know 
your business.
    But this must be incredibly frustrating for you 
warfighters, when you have one of your combatant commanders 
saying I need 2,000 more troops, we are the most powerful 
nation on earth, we have the most powerful military in the 
world, and we can't find 2,000 more troops. Now, is it just not 
realistic out there to find those 2,000?
    General Cody. We have looked, to be sure. When the first 
request came in--and it wasn't 2,000 when it came in, it was 
for a brigade, which was about 3,200--this was to train the 
Afghan army and police, and we looked at it very hard. Again, I 
go back to my comment that the surge sucked all the stroke out 
of the shock absorber. We have very little flex.
    Now, we are under partial mobilization. When people ask and 
say, ``Gees, you got 1.1 million people in the Army. Can't you 
find that?'' Not the way we are operating today. We haven't 
fully mobilized for this war, and I am not suggesting that we 
should. We have put a lot of strain and stress on the National 
Guard and the Reserve component forces, we have got a lot of 
stress and strain on the active force, and when we looked at 
this, we couldn't find the 2,000 that we would move over there 
to do it cyclically because it was going to take away from the 
warfight in Iraq.
    Dr. Snyder. Thank you.
    The Chairman. Let me follow through on that.
    The question was asked of Admiral Keating--a similar 
question was asked of Admiral Keating, when he was here, and my 
recollection is that he said he has sufficient troops to do 
that; am I not correct?
    Dr. Snyder. That is exactly what he said----
    The Chairman. From his command. And I understand the thrust 
of Dr. Snyder's question and a little trouble on why you can't 
find the answer.
    Dr. Snyder. Mr. Chairman.
    The Chairman. Yes.
    Dr. Snyder. May I ask in a related follow-up?
    The Chairman. Please do.
    Dr. Snyder. And you have been in the building a long time 
now, Mr. Cody. Do you know, when did Iraq become priority 
number one and Afghanistan became priority number two? Because 
that is what your talk about here. Your priority is number 
one--and those 2,000 troops are somewhere. Right now they are 
in Iraq. When did Iraq become priority number one?
    General Cody. I don't have the exact date. I believe, 
though, we ran an exercise with the Joint Staff--our Elaborate 
Crossbow series exercises--and I can't remember if it was 
Elaborate Crossbow 1 or 2 where we looked at all the combatant 
commands (COCOMs) across the board on how we were going to 
balance when we rotated OIF one force out in the OIF to the 
Iraq force in and how we were going to balance across the 
COCOMs, as well as the requirements for Afghanistan and Iraq. 
But it was somewhere probably in the 2004 timeframe, as I 
remember.
    Dr. Snyder. Thank you for your indulgence, Mr. Chairman.
    Thank you, General.
    The Chairman. For what it is worth being a country lawyer 
and a reserver through the years, those in the area that might 
well attack us, as they have before, have a very difficult time 
understanding why that does not remain priority number one.
    Mr. Saxton.
    Mr. Saxton. Thank you, Mr. Chairman.
    And I just wanted to follow up on a question that the 
chairman asked earlier when he said, if the wars in Iraq and 
Afghanistan were over--I don't know whether he used the word 
``instantly'' or not--but came to an end and what we would do, 
and I thought, General Cody, your answer was right on. 
Obviously, we would have to get people out of the country in an 
organized, efficient manner. We would have to return to broad-
spectrum training that you talked about.
    Let me just ask this: Looking ahead just a little bit 
further--let us say 5 to 10 years--it seems to me that we are 
going to find ourselves going through a revolutionary 
development in warfare. Over the past several months, I have 
had the opportunity to look at some of the technology that both 
the Army and Marines will have access to as we go forward. Just 
the other day we ventured to Fort Bliss to see some components 
of the future combat system, which are quite impressive. And, 
of course, more recently--just today--the Army had an FCS and 
Land Warrior demonstration here in this building.
    And I have got to say, Mr. Chairman, that, while it is 
fairly easy--comparatively easy to talk about legacy systems--
where we need more, where we have weaknesses, where we need 
more training, where we need different kinds of training--it is 
a whole new world to try to figure out what the technologies 
that we will be adopting in the military in the next decade 
mean to readiness, warfighting capability.
    For example, to think about tactical firepower that can be 
precision firepower and reach out 40 kilometers, to talk about 
the force multiplier effect of various types of technology and 
sensors that can actually relieve us of some human 
responsibilities, that we can have command vehicles that can 
handle top-secret information and be mobile, that we can have 
fuel-efficient vehicles that eliminates the need for long 
convoys of fuel trucks using electric and diesel hybrid 
technology.
    These things are all in the design stage, and they are 
going to be real, and I just--and the Land Warrior system, a 
system that gives soldiers at the platoon leadership level the 
ability to see things that we can't see now. It is hard to talk 
about these things because we really haven't developed a 
language to explain them to each other very well yet.
    General Cody, I would just like to ask--you have been 
dealing with these things on a full-time basis now for the 
entire period that they have been in development, whatever that 
has been. Tell us what you think they mean to future readiness 
and future force capability?
    General Cody. Thank you, Congressman.
    You have stated it better than I can, but the real 
dichotomy that we are in, that we have always been in in the 
past and why I think we need to reverse that trend is we have 
always traded off either our current or our future, and we no 
longer can do that.
    The Future Combat System suite of equipment that you saw--
the Army's experimental task force out there--some of that 
technology was being used right now in Iraq. With the help of 
this committee, we have got unmanned aerial vehicles tied to 
manned systems, air-ground manned and unmanned teaming seeking 
out and killing the IED and placers. We have got robotics that 
are doing great work in saving soldiers' lives.
    This stuff is here today, and what we need to do is take 
the long-term view. We can't leave Iraq and Afghanistan--
whenever that is--and turn around and say, ``Well, that was 
fine, and we paid for it by taking money out of future.'' 
Because we are going to face another threat.
    And the chairman talked about 1950 and that war. We stopped 
looking at the future back then, and our bullets wouldn't take 
care of the Chinese tanks. We didn't have the right 
communication gear, and Brad Smith and Task Force Smith had a 
heck of a fight on his hands, and the Pusan Perimeter almost 
collapsed because we did not have the forethought to invest in 
future technologies.
    And so we have to balance that in a balanced way. But the 
Future Combat System promises to save soldiers on the 
battlefield, allow them to develop out of the contact the 
situation and bring precision munitions to the enemy and gives 
us great latitude, as well as reduces our logistical footprint.
    We need to continue to invest in that because there are 
going to be fights in the next five years where that technology 
is going to be needed, and we can't turn around and say, ``Let 
us trade off those monies there to fix your current problems.'' 
We have to take a balanced approach.
    Mr. Saxton. General Magnus, do you have a perspective on 
this?
    General Magnus. Thank you, Congressman. Again, agree with--
and no surprise the two warriors known each other so long 
agree.
    You are right about the tremendous impact of changing in 
technologies, but I will tell you that the human element of 
warfare continues to rapidly evolve. And more than just the 
humans. Yes, robots. Robots help us. In the future they are 
going to be under sea, looking for mines, but they are on the 
ground right now getting an advance of our explosive ordinance 
disposal teams and our other ground combat Marines.
    But it is also dogs. We are now learning how to use combat 
tracker dogs, new ways of using an old capability--the man-dog 
team--but also bomb dogs. They don't have to be used just in 
the airports. They are actually helping the Marines along with 
the robots.
    Along with intelligence fusion, and not just soldiers and 
Marines but interagency fusion of our capabilities. To be able 
to exploit networks--the enemy is using networks to enable 
their command and control communications and propaganda. We can 
also exploit not only our own networks but exploit the 
capabilities of others.
    We are fielding dramatically new capable weapon systems. 
The Marines are first deploying out a weapon system that was 
pioneered by the Army--the Army's multiple launch rocket system 
(MLRS). We have got the high mobility artillery rocket system 
(HIMARs) version of that. They are firing precision rockets 
from Al Taqaddum in support of operations in Al Anbar.
    We are fielding a new 120-millimeter mortar system and our 
Expeditionary Fire Support System so that, if we again have to 
go to someplace like Eastern Afghanistan--and it is not a 
question of if, it is simply a question of when and where we 
will go there--we will have organic, long-range precision fires 
to fill the gap between 81-millimeter mortars and the 155s and, 
on the high end, the HIMARs.
    We are going to meet and beat the threat of things like 
IEDs and EFPs not just by armoring our vehicles. And we are 
armoring our vehicles. You know about the Humvees, the MRAPs 
and the future joint light tactical vehicles (JLTVs). But it is 
a combination of counter-IED electronic warfare equipment, as 
well as the tactics and techniques of our soldiers and Marines.
    New ground combat systems, like the Expeditionary Fighting 
Vehicle, new ships, new aircraft, but also a new 21st century 
warrior team, which is here now and is probably evolving faster 
than the technologies are evolving.
    The Chairman. Thank the gentleman.
    Mr. Taylor has a question.
    Mr. Taylor.
    Mr. Taylor. Gentlemen, again, thank you for sticking 
around.
    General Magnus, on the V-22--great platform, I am glad it 
is working. It does, however, strike me as being particularly 
vulnerable with its lack of self-defense. And I was curious 
what initiatives are taking place within the Marine Corps to 
weaponize the V-22. I am glad things are going well in Anbar, 
but there is no guarantee it stays that way.
    The second thing I would hope you mention is, in your 
written testimony, you talked about the Marine Corps Wounded 
Warrior units. Every young amputee that I have encountered, 
first words out of their mouths are they want to stay with 
their unit. And I am curious to what extent both of your 
services are letting those young people know early on the 
opportunities that exist, what steps they would have to take in 
order to stay in? And I am very pleased that, because of the 
help of the Secretary of the Navy and the folks at the Merchant 
Marine Academy, we do have a program to try to get some of your 
wounded warriors over to that academy to act as coaches and 
tutors and instructors.
    Can you walk us through some of the opportunities that you 
are finding for people who, because of their service to their 
country, find themselves in that situation?
    General Magnus. Thank you, Congressman. So let me answer 
this in two parts. First on the V-22 and then, second, on what 
we are doing with wounded warriors, and on that one I certainly 
would recommend that we allow General Cody to comment on the 
Army's Wounded Warrior brigade and the tremendous efforts that 
they are doing.
    V-22 self-defense, quite frankly, all of our rotary-wing 
aircraft, with the exception of our attack helicopters, have 
always been vulnerable to fires received from the forward area. 
The only helicopters that have forward-firing weapon systems 
are attack platforms that have been equipped with forward-
firing guns or forward-firing organs like Hellfire and Tow.
    Having said that, the V-22 currently deploys with a ramp-
mounted gun, which is very similar to the capabilities we use 
for sideward-firing and rearward-firing guns, even on some of 
our special operations aircraft.
    But, in fact, we are now working and believe that we will 
be successful in testing and eventually fielding a belly-
mounted gun system that will be able to be deployed out of the 
door in the belly that is commonly called the ``hell hole'' 
that will allow a forward-firing capability for the first time 
from a transport helicopter. We believe we will be able to 
successfully test that this year. On the completion of those 
successful tests, we will rapidly field--and this is not a new 
gun system, but it is integration of the system inside the V-22 
for the first time.
    Our first V-22 deployment is finishing this month, and they 
will be replaced with another V-22 squadron. And we are glad to 
report that, not only are the readiness of the aircraft up and 
their effectiveness has been great but we have sustained no 
aircraft losses or casualties.
    With respect to our Wounded Warrior Regiment, sir, our 
first mission, of course, is to get our troops recovered and 
rehabilitated. There will be a determination then at the right 
point, particularly for those who are traumatically injured, 
such as amputees or those that have traumatic brain injury, a 
point at which a decision will be made as to whether or not the 
medical personnel believe there is what we call an ``unfitting 
condition''; in other words, some medical disability that may 
prevent them from continuing military service.
    We will do everything in our power to make sure that, if it 
is an infantryman, that there is a possibility, if they desire 
to stay in military service, that they can change their 
occupational specialty, provided that they are still fit for 
some other military capability in the Marine Corps. We will put 
them on the temporary-limited-disability list, which will last 
for up to 18 months, pending reevaluation. They may, in fact, 
be able to go to the permanent-disability list, in which case 
they will no longer be responsible for things that they could 
have done before they were disabled but now no longer can do, 
provided that they are still fit to perform in some military 
occupational field.
    Many of our wounded elect--as they would have if they 
weren't wounded--elect to leave military service whether they 
are medically retired or not. We will do everything for our 
wounded to make sure that, whether they stay or they elect to 
leave or if, in fact, they are found to be unfit to stay in 
military service, that we not only provide them the clinical 
and nonclinical care, but Marines are Marines for life. We will 
take care of them and help them with the Veterans 
Administration--which we are doing right now--to ensure that 
they can get the education they need to provide a useful and 
productive role in society whether or not they stay Marines in 
uniform or become civilian Marines.
    General Cody. Thank you, Congressman, for that question.
    Just like General Magnus said, we offer every one of our 
soldiers, if they want to stay on active duty and it is 
physically possible for them to do that, we allow them. We have 
got double-amputees that we have put down at our hospitals to 
train other amputees as a coach. We have got a double-amputee 
that is going to go to the War College and then be an 
instructor at West Point. Master Sgt. Luis Rodriguez lost his 
leg early in this war above the knee. We allowed him to stay on 
active duty.
    We have got a couple of hundred--I review the list every 
month--of soldiers that ask to stay on active duty, and we make 
those accommodations, and we do it early in the process because 
we know it is important. Many of them want to stay and continue 
to stay with their buddies and contribute to this Army that 
they have invested in.
    We have 11,000 wounded warriors today in our 35 Wounded 
Warrior Transition Units. Within 12 months, 70 percent of them 
are returned back to their units physically and mentally fit to 
continue on. The other 30 percent end up going through the 
physical evaluation board process. We stay with them the whole 
step of the way as we go through this.
    Mr. Taylor. General, my question is, specifically, for both 
of your services, is there a timeline once that wounded warrior 
has regained consciousness? Is there a timeline where you try 
to deliver the message that you, as the United States Army--
you, as the United States Marine Corps--are going to do 
everything humanly possible should it be that service person's 
decision, to help them stay?
    And this goes to a very real scenario that I encountered in 
the past month or so, but it is about the third or fourth time 
that I have seen it, where--I can't imagine waking up missing 
an arm or a leg. I have seen other people that happened to, but 
I just can't imagine going through it myself. But amongst all 
the other uncertainty that this person is dealing with, that is 
one of them that I don't think anyone has clearly said to them, 
``Look, if you want to stay, we are going to find a way to help 
you make that happen. This is what we are going to expect of 
you. This is what we are going to do for you.'' When do you 
deliver that message?
    General Cody. Usually, it is delivered--because we set up 
the case managers and the Warrior Transition Units. Usually, it 
is delivered when they get on our wards, either at Walter Reed 
or Bethesda or at Brooke Army Medical. They stay a very short 
time in Landstuhl and then get brought in. I go up there--some 
soldiers will stay in the intensive care unit (ICU) for 
sometimes 2 to 3 weeks and then move up to Ward 57 or 56.
    And then they are teamed with their case manager, the nurse 
care manager, as well as their squad leader from the Wounded 
Transition Unit. And we have empowered that triad of care to 
let the soldier know that we are going to do everything we can 
for that soldier to get him totally rehabilitated and, if they 
want to stay in, we will assist them in doing that--or her.
    I had a case--these are all anecdotes. I had a case of a 
young lady, a specialist, military police (MP), who lost both 
her legs below the knee, and she asked to stay on active duty, 
we gave her that option, she rehabilitated well, and then at 
the last minute she decided, you know what, I really don't want 
to do that, and we honored that. So we are working with them.
    There are some tragic cases, though. We should not put 
false hope to some of these people because they can't stay on 
active duty. And for those, they are taken care of in our Army 
Wounded Warrior Program to move them through and take care of 
them all the way up to the point where they have to be 
medically discharged and go into the VA, and then our case 
manager from the Wounded Warrior Program stays with them for 
five years--or with their family, depending upon how severe the 
case is--and then we renew that.
    But there are cases out there, Congressman. I have seen 
them--and I know you have--where we will not be able to keep 
them in uniform, and those are the tragic ones.
    General Magnus. If I could, I will pile on to what General 
Cody said, Congressman.
    Early on--two things--we are going to tell them as soon as 
they ask, which is usually--and I have seen them undergoing 
multiple surgeries want immediately go back to their unit with 
their warrior buddies. So we are not going to give them false 
hope. What we will tell them and their next of kin that are 
with them is that we are going to focus on regaining their 
health, getting their medical condition right, if they need 
therapy--and many of the severely wounded, including the 
amputees we talked about--we have had single and multiple 
amputees that are still in military service. I know of a 
gunnery sergeant that has had over 30 surgeries and is still on 
active duty, mainly because he is still undergoing surgery and 
we are not trying to push him out of the door until he is 
ready.
    The commandant of the Marine Corps two years ago told them 
that, if they are fit to perform any military occupational 
specialty and, if they want to stay in the Marine Corps, we 
will do our best to take care of them clinically first and then 
take care of their rehabilitation in terms of their ability to 
perform a useful function.
    None of these troops want to feel like we are just keeping 
them to make them happy. They want to be soldiers, they want to 
be Marines, and we don't want to give them false hopes, but we 
will give them every single asset that they need, including 
caring, to make sure that we are going to continue to take care 
of them.
    Mr. Taylor. Thank you, Mr. Chairman.
    Thank you, gentlemen.
    The Chairman. Thank you.
    Special thanks and tribute to each of you for your long and 
dedicated service. We appreciate it more than you know.
    Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    Couple of things--one is, General Magnus, how many 
embassies do Marines man around the world? Quite a few, isn't 
it?
    General Magnus. Yes, sir. Embassies, including consulates, 
well over 150. In fact, the number in the last several years 
since 9/11 has increased in response to security requirements 
from the State Department.
    Mr. Hunter. Okay. So over 150. What is your average Marine 
contingent at each one of those?
    General Magnus. Sir, I can get you the information on the 
numbers. The detachments vary quite significantly. In fact, we 
have deployed in Afghanistan and Iraq Marine fleet 
antiterrorism support teams to back up the Marine security 
guards.
    Normally, the number of Marines is in the vicinity of 8 to 
15, but, again, it varies depending upon the security situation 
in the nation.
    Mr. Hunter. Okay. I was just looking at that following on 
the question of my friend from Mississippi. If you have got 
1,500-plus positions at embassies around the world, that would 
seem to me to be a good location for wounded Marines who may 
want to have--may be kind of nice to be able to go tell the 
wife we can go back and we can stay in the Corps and we can 
deploy to one of these locations.
    General Magnus. If I could, Congressman, the only Marines 
that go to Marine security guard duty are ground combat arms. 
These are fully fit and male Marines for close combat that 
comes to your attention when you see an assault like we saw on 
the assault in the embassy in Belgrade. These Marines have to 
be capable of independent combat action. And so we would make 
sure that a Marine who goes into close combat arms is as fully 
capable as he would be if he was sent to close combat in Iraq 
or Afghanistan.
    Mr. Hunter. Well, don't you have some embassies that are 
pretty benign, the ones that the State Department guys like to 
go to?
    General Magnus. Yes, sir. They are benign until they are 
not.
    Mr. Hunter. Okay. Let us explore that a little bit, though, 
General. I think you ought to have some--the other place we 
were looking--at least I thought was of interest--is the State 
Department, especially when I saw the reluctance of some of the 
State Department folks to go to the Green Zone. You have 
probably got some great Marines and soldiers that would like to 
look at that career in the State Department and go to some of 
those places.
    But, listen, one thing that I missed, when I was talking 
about General Cody's--was made aware that General Cody is 
retiring was that you, General Magnus, are retiring on July 16; 
is that correct?
    General Magnus. Seventh, sir. Please don't push it a day. 
[Laughter.]
    Mr. Hunter. Okay. Somebody moved you up.
    Well, this is kind of a--to me, this is quite a blow to the 
committee because you have given magnificent service to our 
country. And to have both of you gentlemen here, especially in 
the middle of this conflict, leaving the service, I think, is a 
real loss to our country. And I want to commend you on a 
magnificent career--I know the committee does--and I wish there 
was a way to keep both of you aboard for the service to our 
country, especially while we are engaged in two shooting wars.
    But thank you very much for your great service to the Corps 
and to America.
    The Chairman. I thank you, gentlemen, and I know everyone 
on this committee joins Mr. Hunter in commending you for your 
outstanding and fearless service.
    Thank you so much.
    [Whereupon, at 4:13 p.m., the committee was adjourned.]


======================================================================




                            A P P E N D I X

                             April 9, 2008

=======================================================================




=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 9, 2008

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 44098.001
    
    [GRAPHIC] [TIFF OMITTED] 44098.002
    
    [GRAPHIC] [TIFF OMITTED] 44098.003
    
    [GRAPHIC] [TIFF OMITTED] 44098.004
    
    [GRAPHIC] [TIFF OMITTED] 44098.005
    
    [GRAPHIC] [TIFF OMITTED] 44098.006
    
    [GRAPHIC] [TIFF OMITTED] 44098.007
    
    [GRAPHIC] [TIFF OMITTED] 44098.008
    
    [GRAPHIC] [TIFF OMITTED] 44098.009
    
    [GRAPHIC] [TIFF OMITTED] 44098.010
    
    [GRAPHIC] [TIFF OMITTED] 44098.011
    
    [GRAPHIC] [TIFF OMITTED] 44098.012
    
    [GRAPHIC] [TIFF OMITTED] 44098.013
    
    [GRAPHIC] [TIFF OMITTED] 44098.014
    
    [GRAPHIC] [TIFF OMITTED] 44098.015
    
    [GRAPHIC] [TIFF OMITTED] 44098.016
    
    [GRAPHIC] [TIFF OMITTED] 44098.017
    
    [GRAPHIC] [TIFF OMITTED] 44098.018
    
    [GRAPHIC] [TIFF OMITTED] 44098.019
    
    [GRAPHIC] [TIFF OMITTED] 44098.020
    
    [GRAPHIC] [TIFF OMITTED] 44098.021
    
    [GRAPHIC] [TIFF OMITTED] 44098.022
    
    [GRAPHIC] [TIFF OMITTED] 44098.023
    
    [GRAPHIC] [TIFF OMITTED] 44098.024
    
    [GRAPHIC] [TIFF OMITTED] 44098.025
    
    [GRAPHIC] [TIFF OMITTED] 44098.026
    
    [GRAPHIC] [TIFF OMITTED] 44098.027
    
    [GRAPHIC] [TIFF OMITTED] 44098.028
    
    [GRAPHIC] [TIFF OMITTED] 44098.029
    
    [GRAPHIC] [TIFF OMITTED] 44098.030
    
    [GRAPHIC] [TIFF OMITTED] 44098.031
    
    [GRAPHIC] [TIFF OMITTED] 44098.032
    
    [GRAPHIC] [TIFF OMITTED] 44098.033
    
    [GRAPHIC] [TIFF OMITTED] 44098.034
    
    [GRAPHIC] [TIFF OMITTED] 44098.035
    
    [GRAPHIC] [TIFF OMITTED] 44098.036
    
    [GRAPHIC] [TIFF OMITTED] 44098.037
    
    [GRAPHIC] [TIFF OMITTED] 44098.038
    
    [GRAPHIC] [TIFF OMITTED] 44098.039
    
    [GRAPHIC] [TIFF OMITTED] 44098.040
    
    [GRAPHIC] [TIFF OMITTED] 44098.041
    
    [GRAPHIC] [TIFF OMITTED] 44098.042
    
    [GRAPHIC] [TIFF OMITTED] 44098.043
    
    [GRAPHIC] [TIFF OMITTED] 44098.044
    
    [GRAPHIC] [TIFF OMITTED] 44098.045
    
    [GRAPHIC] [TIFF OMITTED] 44098.046
    
    [GRAPHIC] [TIFF OMITTED] 44098.047
    
    [GRAPHIC] [TIFF OMITTED] 44098.048
    
    [GRAPHIC] [TIFF OMITTED] 44098.049
    
    [GRAPHIC] [TIFF OMITTED] 44098.050
    
    [GRAPHIC] [TIFF OMITTED] 44098.051
    
    [GRAPHIC] [TIFF OMITTED] 44098.052
    
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 9, 2008

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. SESTAK

    Mr. Sestak. What is the stop-loss number for the 3rd Infantry 
Division over the past year, per brigade, and per division as a whole? 
In addition, how are they broken down, per specialty? Lastly, how many 
of those who might have faced stop-loss as their unit prepared for 
deployment, reenlisted vice-face stop-loss?
    General Cody. The Army is committed to reducing and eventually 
eliminating the use of ``Stop Loss.'' We are currently working with the 
Secretary of Defense to develop policies that will allow us to reduce 
our reliance on ``Stop Loss'' as a force management tool. The data that 
you requested related to ``Stop Loss'' in the 3rd Infantry Division is 
below.
    We have a moral obligation to provide combatant commanders with 
cohesive Army units that are fully manned, trained, and equipped for 
the missions they will undertake in theater. Personnel losses caused by 
separations and retirements have a significant adverse impact on units 
deploying to Operation Iraqi Freedom (OIF) and Operation Enduring 
Freedom (OEF) in terms of cohesion, training, and stability. In order 
to minimize these detrimental effects, we use ``Stop Loss'' sparingly 
and for limited periods of time. ``Stop Loss'' affects only about one 
percent of the total force.

[GRAPHIC] [TIFF OMITTED] 44098.053


                                         (table continues on next page)
(table continued from previous page)

[GRAPHIC] [TIFF OMITTED] 44098.054


    Of those who might have faced stop-loss as their unit prepared for 
deployment, reenlisted vice face stop-loss in the 3rd Infantry in the 
past 12 months, 255 subsequently reenlisted and 11 more transitioned to 
serve in the Reserve Component.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. TSONGAS
    Ms. Tsongas. While patrolling crowded and noisy urban settings in 
Iraq, U.S. troops have a difficult time identifying where enemy fire is 
coming from. Hostile fire has claimed the lives of more than 1,200 
American soldiers in Iraq since combat began there in March of 2003. 
Indeed, it is my understanding hostile fire has become the second 
leading cause of American fatalities after IEDs. General Cody, almost 
six weeks ago I asked General Casey about the status of releasing 
appropriated Supplemental funds for various shooter and sniper 
detection systems. To the best of my knowledge, additional systems have 
not yet been procured using Supplemental funding. Can you please update 
the committee on the Army's counter-sniper initiatives both in terms of 
last year's $1.2 billion Supplemental as well as any additional plans 
moving forward?
    General Cody. The Army received $400 million in other procurement, 
Army funding for Rapid Equipping Soldier support systems in the FY08 
bridge supplemental. The funds were allocated to procuring counter 
sniper items. The funding is less than the total FY08 counter sniper 
requirement of $451 million, which is a reduction from the original 
request of $1.2 billion and was based on a continuing refinement of the 
counter sniper requirements by the Army staff. Counter sniper systems 
being procured with current funding include:

        <bullet>  Boomerang gunshot detection system

        <bullet>  DoubleShot shot detection system

        <bullet>  Vanguard (which integrates a remote weapons station 
        with Boomerang and DoubleShot for vehicle based Counter Sniper 
        capability)

        <bullet>  handheld thermals, stabilized and ruggedized 
        binoculars, security veils and vehicle nets, magnifiers and 
        mannequins.

    The remaining portion of the FY08 supplemental request includes the 
requirement for counter sniper procurement. The Army approved the 
transition of two sniper defeat capabilities into acquisition programs: 
vehicle/fixed site-based gunshot detection and Soldier-based gunshot 
detection. The third capability, a remote weapons station with a 
vehicle based gunshot detection system (similar to Vanguard) has been 
assessed to support an acquisition program decision. Funding requests 
have been incorporated into the Army's FY10-15 Program Objective 
Memorandum submission. If approved, a requirement for the Vanguard-like 
system would be submitted and expected to be a program of record in 
FY12.

                                  <all>

</pre></body></html>
